<html>
<title> - H.R. 1158, TO AUTHORIZE CONVEYANCE OF MINERAL RIGHTS BY THE SECRETARY OF INTERIOR IN THE STATE OF MONTANA; & H.R. 1560, TO AMEND THE YSLETA DEL SUR PUEBLO AND ALABAMA AND COUSHATTA INDIAN TRIBES OF TEXAS RESTORATION ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
H.R. 1158, TO AUTHORIZE CONVEYANCE OF MINERAL RIGHTS BY THE SECRETARY  
OF INTERIOR IN THE STATE OF MONTANA; & H.R. 1560, TO AMEND THE YSLETA 
   DEL SUR PUEBLO AND ALABAMA AND COUSHATTA INDIAN TRIBES OF TEXAS 
                            RESTORATION ACT 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 22, 2011

                               __________

                           Serial No. 112-43

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-729 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                 DAN BOREN, OK, Ranking Democrat Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                




















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 22, 2011.........................     1

Statement of Members:
    Lujan, Hon. Ben Ray, a Representative in Congress from the 
      State of New Mexico........................................     2
        Prepared statement of....................................     4
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska, Prepared statement of...........................     1

Statement of Witnesses:
    Fox, Hon. Joe, Jr., Vice President, Northern Cheyenne Tribe, 
      Lame Deer, Montana.........................................    19
        Prepared statement of....................................    20
    Gillette, Jodi, Deputy Assistant Secretary for Indian 
      Affairs, U.S. Department of the Interior, Washington, D.C..    11
        Prepared statement on H.R. 1158..........................    13
        Prepared statement on H.R. 1560..........................    14
    Hisa, Hon. Carlos, Lieutenant Governor, Ysleta del Sur 
      Pueblo, El Paso, Texas.....................................    25
        Prepared statement of....................................    26
    Kerr, Charles H., President & CEO, Great Northern Properties 
      Limited Partnership, Houston, Texas........................    28
        Prepared statement of....................................    29
    Rehberg, Hon. Dennis, a Representative in Congress for the 
      State of Montana--At Large.................................     7
        Prepared statement of....................................     9
    Reyes, Hon. Silvestre, a Representative in Congress from the 
      State of Texas.............................................     5
        Prepared statement of....................................     6

Additional materials supplied:
    List of documents retained in the Committee's official files.    36
                                     



   LEGISLATIVE HEARING ON H.R. 1158, TO AUTHORIZE THE CONVEYANCE OF 
    MINERAL RIGHTS BY THE SECRETARY OF THE INTERIOR IN THE STATE OF 
MONTANA, AND FOR OTHER PURPOSES; AND H.R. 1560, TO AMEND THE YSLETA DEL 
SUR PUEBLO AND ALABAMA AND COUSHATTA INDIAN TRIBES OF TEXAS RESTORATION 
ACT TO ALLOW THE YSLETA DEL SUR PUEBLO TRIBE TO DETERMINE BLOOD QUANTUM 
               REQUIREMENT FOR MEMBERSHIP IN THAT TRIBE.

                              ----------                              


                        Wednesday, June 22, 2011

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:10 a.m. in 
Room 1334, Longworth House Office Building, Hon. Doc Hastings 
[Acting Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Gosar, Hastings [ex 
officio], Lujan, and Hanabusa.
    Mr. Hastings [presiding]. The Subcommittee will come to 
order. The Subcommittee on Indian and Alaska Native Affairs is 
meeting today to hear testimony on two bills, H.R. 1158, the 
Montana Mineral Conveyance Act, and H.R. 1560, the bill to 
authorize the Ysleta del Sur Pueblo to determine its tribal 
enrollment rules, on the same footing as other recognized 
tribes.
    Under Rule 4[f], opening statements are limited to the 
Chairman and Ranking Member of the Committee so that we can 
hear from our witnesses. I ask unanimous consent, however, that 
any other Member who wants to submit a statement for the record 
be allowed to do so. Without objection, so ordered.
    I note that I am pinch-hitting today for Chairman Young, 
who is preoccupied. So without objection, his statement will 
appear in the record.
    [The prepared statement of Mr. Young follows:]

            Statement of The Honorable Don Young, Chairman, 
     Subcommittee on Indian and Alaska Native Affairs, on H.R. 1158

    Today, we will hear testimony from government and stakeholders 
regarding two bills: H.R. 1158, a bill to authorize the conveyance of 
mineral rights by the Secretary of the Interior in the State of 
Montana, and H.R. 1560, a bill to amend the Ysleta del Sur Pueblo and 
the Alabama and Coushatta Indian Tribes of Texas Restoration Act to 
allow the Ysleta del Sur Pueblo Tribe to determine blood quantum 
requirement for membership in that tribe.
    These bills have been referred to this subcommittee and are 
believed to be non-controversial measures. The first bill, H.R. 1158, 
``The Montana Mineral Conveyance Act,'' as introduced by Representative 
Denny Rehberg, would provide for a land exchange in the State of 
Montana. This land exchange would mutually benefit the Northern 
Cheyenne Tribe, the federal government, and a privately owned coal 
company. To this day, the Tribe does not own all the subsurface rights 
on their reservation. H.R. 1158, would bring ownership of those un-
owned subsurface tracts to the Tribe, after an exchange between the 
federal government and a privately owned company.
    H.R. 1560, as introduced by Representative Silvestre Reyes, would 
allow the Ysleta del Sur Pueblo to set their own blood quantum 
requirement that a member must possess before enrolling in their Tribe. 
Under current law, enrolled members must possess at least 1/8 degree or 
more Yseleta del Sur Indian blood. Similar bills have been introduced 
in every Congress since the 105th Congress.
    I look forward to our witnesses' testimonies and hope to move 
quickly these bills to a full Committee vote.
                                 ______
                                 
    Mr. Hastings. Now I will recognize the gentleman from New 
Mexico for his opening statement. The gentleman is recognized.

   STATEMENT OF THE HON. BEN RAY LUJAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Lujan. Thank you very much, Mr. Chairman. I would like 
to begin by thanking Chairman Doc Hastings for being with us 
today. And as well, I am here on behalf of Ranking Member Dan 
Boren.
    I would like to welcome our colleagues from Montana and 
Texas to the table today, Chairman Rehberg and Congressman 
Reyes, whose bills we have the pleasure of learning more about 
today. Both bills H.R. 1158 and H.R. 1560 provide solutions to 
longstanding issues facing tribes from both the Congressmen's 
districts, and I look forward to hearing their testimonies.
    I would also like to give a special welcome to Lt. Governor 
Hisa of Ysleta del Sur Pueblo, Pueblo Indian Tribe, that has 
close ties to New Mexico; and that I had the pleasure of 
visiting with in the past and at various meetings of the All-
Indian Pueblo Council meetings.
    I was fortunate to be at the IPC traditional meeting held 
at Tewa Pueblo for the Ysleta del Sur Pueblo inauguration 
ceremony back in 2010.
    I appreciate your appearance here today, and I thank you 
for making the long journey to Washington, D.C., to represent 
your people. Welcome.
    The first piece of legislation we will hear witnesses on 
today is Mr. Rehberg's bill, H.R. 1158, which addresses two 
issues facing the Northern Cheyenne Tribe: the Federal 
Government's failure to obtain, for over 100 years, the 
subsurface mineral rights on eight sections of Northern 
Cheyenne Reservation land currently owned by Great Northern 
Properties, GNP, which is the largest owner of coal reserves in 
the U.S. other than the Federal Government; and the Federal 
Government's transfer of 533 million tons of Federal mineral 
rights on the Tribe's ancestral homeland to the State of 
Montana without adequate tribal consultation or consideration 
of potential impacts development of those tracts would have on 
the Tribe's reservation.
    To resolve these issues, the bill would authorize the 
Secretary of the Interior to transfer subsurface mineral rights 
to eight sections of Federal land managed by the Bureau of Land 
Management to GNP, in exchange for GNP's transfer to the Tribe 
the rights to the subsurface of eight sections of land within 
the reservation.
    For its part, the Tribe will waive and release its breach 
of trust claims against the United States for the Federal 
Government's failure to resolve the Tribe's split estate, and 
for the Federal Government's conveyance of Federal coal tracts 
located on the Tribe's ancestral homelands to the State of 
Montana.
    I look forward to hearing more about the details of this 
bill, particularly with respect to how the mineral estates on 
the tracts to be exchanged are valued, and how the bill's 
objective to settle longstanding claims against the United 
States by a tribal beneficiary factors into that analysis.
    The second piece of legislation we will hear witnesses on 
today is H.R. 1560, a bill to amend the Ysleta del Sur Pueblo 
and Alabama and Coushatta Indian Tribes of Texas Restoration 
Act to allow the Ysleta del Sur Pueblo Tribe to determine blood 
quantum requirements for membership in their own tribe.
    This bill is very important to me because of the 
implications that it has upon the ability of this Tribe to 
determine the outcome of its own future. The Pueblo of Ysleta 
del Sur has endured many struggles to reach the point today.
    Effectively, Congressman Reyes's bill would allow Ysleta 
del Sur Pueblo to determine its own requirements for 
membership, an inherent right of all but two of the 565 
Federally recognized Indian Tribes in the United States. This 
bill is about allowing Ysleta del Sur to create a foundation 
for its own future based upon the needs of its tribal 
citizenry, on the principles of tribal self-governance and 
determination.
    Tribal membership is rooted in the very notion of 
sovereignty, and it is critical to the preservation and 
protection of the Pueblo people and their culture. No other 
entity should be in charge of determining who is qualified to 
be a tribal member, other than the Tribe itself. There is no 
doubt that support for this legislation means understanding and 
respecting tribal sovereignty, because it reflects the ability 
of a sovereign tribe to carry on their own culture and 
traditions.
    Ysleta del Sur has the proud support of the Pueblo Tribes 
by virtue of membership in the All-Indian Pueblo Council, an 
organization made up of New Mexico's 19 Pueblos. After being 
absent for over 330 years, Ysleta del Sur Pueblo recently 
rejoined the Pueblo Council to take its rightful place among 
its fellow Pueblos, charging itself with promoting social 
justice and the commonwealth of all Indian Pueblo people.
    Mr. Chairman, I would ask unanimous consent to submit into 
the record a letter of support from the All-Indian Pueblo 
Council for H.R. 1560.
    Mr. Hastings. Without objection, so ordered.
    [NOTE: The letter submitted for the record by Mr. Lujan has 
been retained in the Committee's official files.]
    Mr. Lujan. Thank you again, Mr. Chairman, for the 
opportunity to hear this important bill, and I look forward to 
the opportunity to ask questions. Thank you very much.
    [Prepared statement of Mr. Lujan follows:]

Statement of The Honorable Ben Ray Lujan, a Representative in Congress 
  from the State of New Mexico, on H.R. 1158 (Rehberg) and H.R. 1560 
                                (Reyes)

    Thank you, Mr. Chairman. To begin, I'd like to welcome my 
Colleagues from Montana and Texas at the witness table today, 
Congressman Rehberg and Congressman Reyes, whose bills we have the 
pleasure of learning more about today. Both bills, H.R. 1158 and H.R. 
1560, provide solutions to longstanding issues facing tribes from both 
the congressmen's districts. I look forward to hearing their 
testimonies.
    I'd also like to give a special welcome to Lieutenant Governor Hisa 
of the Ysleta Del Sur Pueblo--a Pueblo Indian Tribe that has close ties 
to New Mexico and one that I have had the pleasure of visiting with in 
the past at various All Indian Pueblo Council meetings.--I was 
fortunate to be at the AIPC traditional meeting held at KEWA Pueblo for 
the Ysleta Del Pueblo Sur inauguration ceremony back in 2010. I 
appreciate your appearance here today and thank you for making the long 
journey to Washington to represent your people. Welcome!
    The first piece of legislation we will hear witnesses on today is 
Mr. Rehberg's bill, H.R. 1158, which addresses two issues facing the 
Northern Cheyenne Tribe: (1) the federal government's failure to 
obtain, for over 100 years, the subsurface mineral rights on 8 sections 
of Northern Cheyenne Reservation land currently owned by Great Northern 
Properties (``GNP''), which is the largest owner of coal reserves in 
the U.S. other than the federal government; and (2) the federal 
government's transfer 533 million tons of federal mineral rights on the 
Tribe's ancestral homelands to the State of Montana without adequate 
tribal consultation or consideration of potential impacts development 
of those tracts would have on the Tribe's Reservation.
    To resolve these issues, the bill would authorize the Secretary of 
the Interior to transfer subsurface mineral rights to 8 sections of 
federal land managed by the Bureau of Land Management to ``GNP'' in 
exchange for GNP's transfer to the Tribe the rights to the subsurface 
of 8 sections of land within the Reservation.
    For its part, the Tribe will waive and release its breach of trust 
claims against the United States for the federal government's failure 
to resolve the Tribe's split estate and for the federal government's 
conveyance of federal coal tracts located on the Tribe's ancestral 
homelands to the State of Montana.
    I look forward to learning more about the details of this bill, 
particularly with respect to how the mineral estates on the tracts to 
be exchanged are valued, and how the bill's objective--to settle 
longstanding claims against the United States by a tribal beneficiary--
factors into that analysis.
    The second piece of legislation we will hear witness on is H.R. 
1560--a bill to amend the Ysleta del Sur Pueblo and Alabama and 
Coushatta Indian Tribes of Texas Restoration Act to allow Ysleta del 
Sur Pueblo Tribe to determine blood quantum requirements for membership 
in their own tribe.
    This bill is very important to me because of the implications it 
has upon the ability of this tribe to determine the outcome of its own 
future. The Pueblo of Ysleta Del Sur has endured many struggles to 
reach this point today. Effectively Congressman Reyes' bill would allow 
Ysleta del Sur Pueblo to determine blood quantum requirement for 
membership in their own tribe, an inherent right of all but 2 of the 
565 federally recognized Indian tribes in the United States. This bill 
is about allowing Ysleta Del Sur to create a foundation for its own 
future based upon the needs of its tribal citizenry and the principles 
of tribal self-governance and self-determination.
    Tribal membership is rooted in the very notion of sovereignty and 
is critical to the preservation and protection of Pueblo people and 
their culture. No other entity should be in charge of determining who 
is qualified to be a tribal member other than the tribe itself. There 
is no doubt that support for this legislation means understanding and 
respecting tribal sovereignty because it reflects the ability of a 
sovereign tribe to carry on their own culture and traditions.
    Ysleta del Sur Pueblo has the broad support of Pueblo tribes by 
virtue of its membership in the All Indian Pueblo Council, an 
organization made up of New Mexico's 19 Pueblos. After being absent for 
over 330 years, Ysleta del Sur Pueblo recently rejoined the Pueblo 
Council to take its rightful place among its fellow Pueblos, charging 
itself with promoting social justice and the common welfare of all 
Pueblo people.
    I ask my colleagues to support Ysleta Del Pueblo Sur in its efforts 
to determine its own membership by swiftly approving H.R. 1560.
    Thank you again Mr. Chairman for the opportunity to hear this very 
important bill and I look forward for the opportunity to ask questions.
    Thank you.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his statement. On 
our first panel of witnesses are our two colleagues, one from 
Montana and one from Texas. I understand that Mr. Reyes has a 
very tight schedule, and Mr. Rehberg likes to have--so he has 
allowed Mr. Reyes to go first.
    So with that, the gentleman is recognized for five minutes. 
I am sure you know the light schedule. The green light goes on, 
you have five minutes; yellow light, 30 seconds. Your full 
statement will appear in the record.
    So Mr. Reyes, you are recognized for five minutes.

  STATEMENT OF THE HON. SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Mr. Chairman. I want to thank my 
colleague for allowing me to go first. I very much appreciate 
it.
    Good morning, and I want to thank you, Mr. Chairman, and 
the Ranking Member, for the support that you have given me, and 
also the members of this Committee for their assistance, as 
well.
    My legislation, H.R. 1560, is set to grant the people of 
the Ysleta del Sur Pueblo the right to determine their own 
membership. This historic Federally recognized Native American 
Tribe is the oldest community in Texas, and one of only three 
Native American Tribes in the State.
    The tribal community, which is known as Tewa, was 
established in 1681, after the Pueblo revolt against the 
Spanish colonization of the Americas, nearly a century before 
the Declaration of Independence, and more than 160 years before 
the annexation of Texas to the United States.
    For over three centuries, the Tewa have maintained a 
vibrant presence in my Congressional District in El Paso, 
Texas, and are a central part of our community's culture and 
heritage. Today there are nearly 1700 enrolled members in the 
Tribe. But without this legislation, and without this action 
that will correct an injustice that has existed in Federal law 
since 1987, the Ysleta del Sur Pueblo will lose its recognition 
as a sovereign nation.
    Due to an unfairly imposed one-eighth blood quantum 
requirement by Congress that singles out the Tewa and coming 
generations, they will lose their Federally recognized status, 
and the right to self-govern their historic community.
    Of the 565 Federally recognized Native American Tribes in 
the U.S., the Ysleta del Sur Pueblo is one of the very few, if 
not the only one, whose tribal membership criteria is 
proscribed by the Federal Government, and not by the people of 
the Tribe. Every other Native American Tribe has a right to 
determine the criteria of its own membership based on customs, 
traditions, language, and tribal blood.
    According to a former Tewa Governor, the imposed blood 
quantum requirement was the first time Congress had taken such 
action since 1946, and has not done so since. None of the newly 
recognized tribes since the Ysleta del Sur Pueblo have been 
subjected to such blood quantum requirements by our Federal 
Government.
    My legislation corrects this inequity and the singling out 
of the Ysleta del Sur Pueblo. It removes the one-eighth blood 
quantum requirement in the Ysleta del Sur Pueblo in the Alabama 
and Coushatta Indian Tribes of Texas Restoration Act of 1987. 
It also allows the Tewa to determine their own criteria for 
membership based on their own unique culture, heritage, and 
traditions.
    My legislation has no cost associated with it, and I ask 
unanimous consent to submit two letters for the record from the 
Bureau of Indian Affairs and the Department of Health and Human 
Services that support this fact.
    Mr. Hastings. Without objection, so ordered.
    [NOTE: The two letters submitted for the record by Mr. 
Reyes have been retained in the Committee's official files.]
    Mr. Reyes. Thank you, Mr. Chairman. The Ysleta del Sur 
Pueblo has been an important part of the community's history 
for nearly 330 years. They are an important part of our 
identity, and continue to make invaluable contributions to our 
region's culture and heritage.
    In addition, the Tribe is an important part of our regional 
economy, providing employment opportunities to approximately 
400 people.
    As many of you know, I have been deeply committed to 
correcting this inequity for many years. It has passed this 
Committee and the House under both Republican and Democrat 
leadership, in the 106th Congress and in the previous two 
Congresses, as well.
    I appreciate the opportunity that many of you have shown to 
support this important legislation in the past, and in helping 
us to rectify this inequity. Passage of this bill and its 
enactment into law is critical to this historic tribe's 
existence. By eliminating this unfair tribal enrollment 
requirement, the Tewa will have the same rights afforded to 
every other Federally recognized Native American Tribe, and 
they will be able to preserve the unique heritage, based on 
shared history, customs, and language, in addition to tribal 
blood. This bill will ensure their survival as the oldest 
community in Texas, and the only Pueblo still in existence in 
the State.
    I strongly urge your support again of this very important 
legislation to our Tewa Tribe. I thank you for your attention.
    [The prepared statement of Mr. Reyes follows:]

    Statement of The Honorable Silvestre Reyes, a Representative in 
       Congress from the State of Texas, in support of H.R. 1560

    Good morning, I would like to thank the Chairman and Ranking 
Member, and the committee for holding this hearing on my legislation, 
H.R. 1560, to grant the people of the Ysleta del Sur Pueblo the right 
to determine their own membership. This historic federally-recognized 
Native American tribe is the oldest community in Texas, and one of only 
three Native American tribes in the state. The Tribal community, known 
as ``Tigua,'' was established in 1682, after the Pueblo Revolt against 
the Spanish colonization of the Americas, nearly a century before the 
Declaration of Independence, and more than 160 years before the 
annexation of Texas to the United States.
    For over three centuries, the Tigua have maintained a vibrant 
presence in my congressional district in El Paso, Texas, and are a 
central part of our community's rich culture and heritage. Today, there 
are nearly 1,700 enrolled members in the Tribe, but without legislative 
action to correct an injustice that has existed in federal law since 
1987, the Ysleta del Sur Pueblo will lose its recognition as a 
sovereign nation. Due to an unfairly-imposed one-eighth blood quantum 
requirement by Congress that singles out the Tigua, in the coming 
generations, they will lose their federally-recognized status, and the 
right to self-govern their historic community.
    Of the 565 federally-recognized Native American tribes in the 
United States, the Ysleta del Sur Pueblo is one of the very few, if not 
the only one, whose tribal membership criteria is prescribed by the 
federal government, and not by the members of the tribe. Every other 
Native American tribe has the right to determine the criteria of its 
own membership, based on its unique customs, traditions, and language, 
in addition to tribal blood. According to a former Tigua governor, the 
imposed blood quantum requirement was the first time Congress had taken 
such action since 1946, and it has not done so since. None of the 
newly-recognized tribes since the Ysleta del Sur Pueblo have been 
subject to such blood quantum requirements by the federal government.
    My legislation corrects this inequity and the singling out of the 
Ysleta del Sur Pueblo. It removes the one-eighth blood quantum 
requirement in the Ysleta del Sur Pueblo and Alabama Coushatta Indian 
Tribes of Texas Restoration Act of 1987, and allows the Tigua to 
determine their own criteria for membership based on its own unique 
culture, heritage, and traditions.
    My legislation has no cost associated with it, and I ask unanimous 
consent to submit two letters for the record, from the Bureau of Indian 
Affairs and the Department of Health & Human Services, that support 
this fact.
    The Ysleta del Sur Pueblo has been an important part of the 
community's cultural heritage for nearly 330 years. The tribe is an 
inseparable part of our history, and it should be allowed to preserve 
its status as a sovereign nation for future generations.
    As many of you know, I have been deeply committed to correcting 
this inequity for many years. It has passed this committee and the 
House under both Republican and Democratic leadership in the 106th 
Congress and in the previous two Congresses. I appreciate the support 
that many of you have shown in this effort and in helping to rectifying 
this inequity.
    Passage of this bill and its enactment into law is critical to this 
historic tribe's survival. By eliminating this unfair tribal enrollment 
requirement, the Tigua will have the same rights afforded to every 
other federally-recognized Native American tribe, and will be able to 
preserve their unique heritage based on shared history, customs, and 
language, in addition to tribal blood. This bill will ensure the 
preservation of Texas' oldest community, and the only remaining pueblo 
in the state. I strongly urge your support of this legislation.
                                 ______
                                 
    Mr. Hastings. I thank the gentleman for his testimony, and 
I will recognize the gentleman from Montana, Mr. Rehberg, for 
five minutes.

   STATEMENT OF THE HON. DENNIS REHBERG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF MONTANA

    Mr. Rehberg. Chairman Hastings, Mr. Lujan, thank you for 
inviting me to testify before the Subcommittee on my bill.
    Before I begin, it is a privilege to welcome one of my 
constituents here today, Joe Fox, to testify. Joe is Vice 
President of the Northern Cheyenne Tribe, which is located in 
southeastern Montana.
    I introduced this Act to right a wrong that has been done 
to the Northern Cheyenne. For more than 111 years, the Northern 
Cheyenne have been deprived of controlling eight sections of 
land on their reservation, the only subsurface rights on the 
reservation they do not own. The Tribe does not own this 
property because of an oversight of the United States more than 
a century ago. The failure to remedy this oversight has gone on 
for far too long. This legislation makes the Northern Cheyenne 
whole again, which is why I am proud to sponsor it.
    In 1900 the Federal Government failed to purchase eight 
sections of subsurface property within the reservation. This 
omission left those sections under control of the Northern 
Pacific Railway, which has since been passed into Great 
Northern Properties. The Tribe and Great Northern Properties 
negotiated an agreement that provides for relinquishment by GNP 
to the Tribe of these eight sections, or about 5,000 acres of 
on-reservation subsurface coal owned by GNP.
    In return, GNP will receive approximately 5,000 acres off-
reservation Federal coal located in Bowl Mountains and Bridge 
Creek Federal coal tracks in Montana. This collaborative 
legislation strikes a reasonable balance between all impacted 
parties. The Tribe regains subsurface control, which makes 
their land and resources contiguous and provides needed 
revenue; and Great Northern Properties receives subsurface 
access from two other areas in Montana currently owned by the 
Federal Government.
    This bill will provide much-needed impact funding for the 
Northern Cheyenne, as well. The Tribe will receive 40 percent 
of the royalties Great Northern Properties is paid from any 
coal development that occurs on Federal land received by GNP as 
compensation. This money will help alleviate some of the 
challenges now faced on the reservation, whether it is for 
health care, education, or infrastructure.
    I would also like to mention that enactment of this 
legislation will ensure that 280 miners at Signal Peaks Mine in 
Mussel Shell County, Montana will keep their good-paying jobs. 
Rural Montana desperately needs these jobs, and this bill will 
provide an avenue for more coal production. This area has been 
devastated by recent flooding, and Signal Peak Energy, the 
mine's owner, has been integral in helping Roundup's residents 
protect their businesses and homes. I want to thank them for 
those efforts.
    It is important to stress the bipartisan nature of this 
legislation. This legislation had bipartisan support in 2002, 
when the Board of Land Commissioners, which is comprised of the 
top five elected officials in the State, entered into the so-
called Otter Creek settlement with the Northern Cheyenne. That 
settlement was supported by the entire Montana Congressional 
delegation. This legislation has also been introduced on the 
Senate side by Sen. Baucus and Sen. Taster, and supported by 
the Governor, Gov. Schweitzer.
    As you know, Federal coal royalties are split between the 
Federal Government and states. While both lose out on 
royalties, the State supports the settlement and its job-
creating impacts. In return for the package of commitments, the 
Tribe, in 2002, promptly dismissed, with prejudice, a Federal 
Court lawsuit against the United States challenging the 
transfer of the Otter Creek tracts to the State.
    I am working with the Congressional Budget Office to 
ascertain the cost to the Federal Government of the withdrawal 
of royalties, but the Tribe's aforementioned claim could offset 
the value of these royalties. The Tribe committed that in 
return for the conveyance to it of the eight sections, it would 
release any and all claims it may have against the United 
States for its failure to acquire that subsurface. Furthermore, 
$70 million in impact funding contemplated by the Tribe's Otter 
Creek settlement has been deleted from the bill. Congress, as a 
result, will not need to appropriate any funds for this 
legislation upon passage.
    With passage of this legislation, the American taxpayer 
will avoid costly litigation, the Tribe will regain control of 
its own resources and associated revenue, and the people of 
America will benefit from the development of Montana's abundant 
coal reserves. Coal can and should be a part of America's all-
of-the-above energy solution to ease prices while stimulating 
job growth in our rural communities.
    Because of everything the bill will do for the Northern 
Cheyenne, H.R. 1158 has the support of the Montana-Wyoming 
Tribal Leaders Council and the National Congress of American 
Indians. This bill is the right thing to do.
    Again, I want to thank you for allowing this opportunity. I 
would like to enter a couple of letters into the record, if I 
may, please.
    Mr. Hastings. If you would identify the letters, we would 
be more than happy to do those.
    Mr. Rehberg. They are a letter of support from the Montana 
Board of Land Commissioners, and a resolution passed by the 
Montana-Wyoming Tribal Council, Leaders Council.
    Mr. Hastings. Without objection, they will be part of the 
record.
    Mr. Rehberg. Thank you.
    [The prepared statement of Mr. Rehberg follows:]

Statement of The Honorable Dennis Rehberg, a Representative in Congress 
           from the State of Montana--At Large, on H.R. 1158

    Chairman Young and Ranking Member Boren, thank you for inviting me 
to testify before the Subcommittee on H.R. 1158, the Montana Mineral 
Conveyance Act.
    Before I begin, it's a privilege to welcome one of my constituents 
here today, Joe Fox Jr., to testify on this bill. Joe is Vice President 
of the Northern Cheyenne Tribe, which is located in Southeastern 
Montana, and he will be able to share with the Subcommittee the 
importance of this legislation to the Northern Cheyenne. Montana's a 
long way from Washington, and I appreciate his willingness to travel 
across the country for this hearing.
    I introduced the Montana Mineral Conveyance Act to right a wrong 
that has been done to the Northern Cheyenne. For more than 111 years, 
the Northern Cheyenne have been deprived of controlling eight sections 
of land on their Reservation--the only subsurface rights on the 
Reservation they do not own.
    The Tribe does not own this property because of an oversight of the 
United States more than a century ago. The failure to remedy this 
oversight has gone on for too long. This legislation makes the Northern 
Cheyenne whole again, which is why I'm proud to sponsor it.
    In 1900, the federal government failed to purchase eight sections 
of subsurface property within the Reservation. This omission left these 
sections under control of the Northern Pacific Railway, which has since 
been passed onto Great Northern Properties. The Tribe and Great 
Northern Properties negotiated an agreement that provides for 
relinquishment by GNP to the Tribe of these eight sections--or about 
5,000 acres--of on-Reservation subsurface coal owned by GNP. In return, 
GNP will receive approximately 5,000 acres of off-Reservation federal 
coal located in the Bull Mountains and Bridge Creek federal coal tracts 
in Montana.
    This collaborative legislation strikes a reasonable balance between 
all impacted parties. The Tribe regains subsurface control, which makes 
their land and resources contiguous and provides needed revenue. Great 
Northern Properties receives subsurface access from two other areas in 
Montana currently owned by the federal government.
    This bill will provide much-needed impact funding for the Northern 
Cheyenne as well. The Tribe will receive 40% of the royalties Great 
Northern Properties is paid from any coal development that occurs on 
the federal land received by GNP as compensation. This money will help 
alleviate some of the challenges now faced on the Reservation, whether 
it's for healthcare, education or infrastructure.
    I'd also like to mention that enactment of this legislation will 
ensure that 280 miners at Signal Peak's mine in Musselshell County, 
Montana will keep their good-paying jobs. Rural Montana desperately 
needs these jobs, and this bill will provide an avenue for 
uninterrupted coal production. This area has been devastated by recent 
flooding, and Signal Peak Energy, the mine's owner, has been integral 
in helping Roundup's residents protect their businesses and homes. I 
want to thank them for their efforts.
    It's important to stress the bipartisan nature of this legislation. 
This legislation had bipartisan support in 2002--when the Montana Board 
of Land Commissioners, which is comprised of the top five elected 
officials in the State, entered into the so-called Otter Creek 
settlement with the Northern Cheyenne. That settlement was supported by 
the entire Montana Congressional delegation.
    This bipartisan support continues. Senator Baucus has introduced 
companion legislation in the Senate. And, the current Montana Board of 
Land Commissioners, which has five Democrats, including Governor 
Schweitzer, has sent a letter urging Congress to pass the bill. Today's 
hearing is a great start.
    As you know, federal coal royalties are split between the federal 
government and the states. While both lose out on royalties, the state 
supports the settlement and its job-creating impacts. In return for the 
package of commitments, the Tribe in 2002 promptly dismissed with 
prejudice a federal court lawsuit against the United States challenging 
the transfer of the Otter Creek tracts to the State.
    I'm working with the Congressional Budget Office to ascertain the 
cost to the federal government of the withdrawn royalties, but the 
Tribe's aforementioned claim could offset the value of these royalties. 
The Tribe committed that, in return for the conveyance to it of the 
eight sections, it would release any and all claims it may have against 
the United States for its failure to acquire that subsurface. 
Furthermore, $70 million in impact funding contemplated by the Tribe's 
Otter Creek settlement has been deleted from the bill. Congress, as a 
result, will not need to appropriate any funds for this legislation 
upon passage.
    With passage of this legislation, the American taxpayer will avoid 
costly litigation, the Tribe will regain control of its own resources 
and the associated revenue, and the people of Montana will benefit from 
the development of Montana's abundant coal reserves. Montana has been 
called the ``Saudi Arabia'' of coal. It's plentiful and relatively easy 
to get to--when the government permits it. Coal can, and should be a 
part of America's all-of-the-above energy solution to ease prices while 
stimulating job growth in our rural communities.
    Because of everything the bill will do for the Northern Cheyenne, 
H.R. 1158 has the support of the Montana-Wyoming Tribal Leaders Council 
and the National Congress of American Indians. This bill is the right 
thing to do.
    In closing, I want to thank Chairman Young and Ranking Member Boren 
for holding a hearing on this legislation. I also want to thank the 
Tribe and all those who've come together on this agreement. With your 
permission, I'd like to submit for the record a letter of support from 
the Montana Board of Land Commissioners and a resolution passed by the 
Montana-Wyoming Tribal Leaders Council. Again, thank you, and I'd be 
happy to answer any questions the Subcommittee may have.
                                 ______
                                 
    [NOTE: The letters submitted for the record by Mr. Rehberg 
have been retained in the Committee's official files.]
    Mr. Hastings. I want to thank my colleagues for their 
testimony. This Committee, unlike other committees, do question 
Members. Other committees don't do that. I guess it is not 
because we are not afraid of what you might say, but whatever 
it is.
    So I just have one question, and I think you alluded to 
that in your testimony. But the potential is here, clearly, for 
all of the above energy, if a tribe decides to exercise their 
rights, if this bill should pass. Is that the essence of what 
this bill is?
    Mr. Rehberg. That is correct. It is a jobs-creator because 
the property we are talking about, specifically the subsurface, 
is in the way of, or in the path of an existing mine. And we 
actually need to probably get, need to get something done 
through Congress, and signed by the President, if we can, by 
September, and the Senate is ready to fast-track this, as well. 
Because it does affect 280 jobs at Signal Peak; it is something 
that has a little time sensitivity.
    So it is part of the all-of-the-above solution, and it is 
part of the jobs package.
    Mr. Hastings. Good. Well, I appreciate the gentleman's 
response. I, too, am a very strong supporter of all-of-the-
above energy, and I recognize that the fossil fuels that we 
have in this country are immense, and we should be utilizing 
all of those that we possibly can, if that is what the decision 
is.
    Mr. Rehberg. Again, Mr. Chairman, and I would like to 
stress that I really thank the Cheyenne Tribe for being willing 
to drop the financial aspect. That is really what is going to 
allow this to move forward. Because we are in a budget crisis; 
we know that. I am having to try to find at least $25 billion 
worth of reductions just in my Appropriations Subcommittee 
alone.
    And by their being willing to drop the financial aspect, 
this goes a long ways toward helping us solve a fiscal crisis, 
too. So it is jobs, it is all of the above, and it is helping 
with our fiscal crisis.
    Mr. Hastings. Well, I thank the gentleman for his 
testimony. And when these agreements can be worked out before a 
bill is introduced, obviously that is very, very helpful.
    Mr. Rehberg. And unusual.
    Mr. Hastings. I have no further questions. I will ask if 
any of my colleagues want to ask any questions, rather than 
going one by one. OK?
    With that, Mr. Rehberg, thank you very much for your 
testimony. I would like to ask that if there are further 
questions from the Members, we would appreciate it if you could 
respond in a timely manner.
    Mr. Rehberg. I will indeed. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you. We will now call the next panel. 
Our next witnesses are Jodi Gillette, the Deputy Assistant 
Secretary for Indian Affairs. She is accompanied by Mitchell 
Leverette of the Bureau of Land Management. Mr. Leverette is 
the Division Chief for BLM's Solid Waste Materials Divisions.
    Once again I remind that your testimony, Ms. Gillette, will 
be entirely part of the record. You have five minutes. And you 
heard that when the green light goes on, you have the five 
minutes; yellow light, 30 seconds; and the red light, hopefully 
you can wrap up.
    So with that, gentlelady, you are recognized.

  STATEMENT OF JODI GILLETTE, DEPUTY ASSISTANT SECRETARY FOR 
        INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Gillette. Good morning, Mr. Chairman and members of the 
Subcommittee. My name is Jodi Gillette, and I am the Deputy 
Assistant Secretary for Indian Affairs at the Department of the 
Interior.
    I am here today to provide the Department's position on 
H.R. 1560, a bill to amend the Ysleta del Sur Pueblo and 
Alabama and Coushatta Indian Tribes of Texas Restoration Act, 
to allow the Tribe to determine blood quantum requirements for 
membership in their Tribe, and H.R. 1158, the Montana Mineral 
Conveyance Act.
    It is an honor to appear today before this new and 
important Subcommittee. I will testify first on H.R. l560, and 
then H.R. 1158.
    In 1987, Congress passed the Ysleta del Sur Pueblo and 
Alabama and Coushatta Indian Tribes of Texas Restoration Act, 
which restored the Federal trust relationship between the 
Federal Government and the Ysleta del Sur Pueblo. The 
Restoration Act proscribes membership for the Tribe to only 
those individuals on the Tribe's 1984 membership roll and to 
their descendants with at least one eighth or more Tewa Ysleta 
del Sur Pueblo Indian blood, and who are enrolled by the Tribe.
    H.R. 1560 would amend the Restoration Act to enable the 
Tribe to determine for themselves the blood quantum 
requirements, if any, for membership into the Tribe. This 
amendment would allow the Tribe to determine their own 
enrollment criteria, as any other Federally recognized tribe 
has the right to do.
    While the legislation would allow the Tribe to determine 
the size of its own membership, the Department does not expect 
an additional tribal priority allocation base funding amount to 
be awarded to the Tribe. The Department supports the Tribe's 
request to determine its criteria for membership, which is 
consistent with the Administration's support for the policies 
of self-governance and self-determination for all Federally 
recognized tribes.
    H.R. 1158 states that the Northern Cheyenne Tribe has been 
wronged in two ways by the Federal Government. First in 1990, 
when the reservation was expanded, the United States Indian 
inspector made efforts to purchase private lands within the 
reservation boundaries, but was unable to secure subsurface 
rights in eight sections, about 5,000 acres, from Northern 
Pacific Railway.
    The mineral rights to the Cheyenne tracts, as they as 
known, are now held by a successor of the railroad, Great 
Northern Properties.
    Second is the potential for mineral development of the 
Otter Creek area, which is east of the Tribe's reservation. The 
1998 Interior Appropriations Act authorized the conveyance to 
the State of Montana of all the Federal mineral rights on three 
Otter Creek tract parts, of which are located within three to 
four miles of the Northern Cheyenne Reservation.
    The Northern Cheyenne filed suit in the U.S. District Court 
in the District of Columbia in January 2002, against the 
Secretary of the Interior, to stop the transfer, and to assert 
that extensive coal mining so close to the reservation would 
violate several Federal laws and the Federal trust 
responsibility to the Tribe.
    The Tribe's suit was withdrawn, with prejudice, when the 
Tribe entered into an agreement with the Montana State Board of 
Land Commissioners, guaranteeing tribal consultation on the 
approval of mining plans.
    H.R. 1158 seeks to accomplish the conveyance to the Tribe 
of about 5,000 acres in subsurface mineral rights that the 
Tribe did not receive in 1900, when it acquired the rights to 
the surface.
    Great Northern Properties, under the bill, would receive an 
exchange conveyance of all interest of the United States of 
approximately 5,000 acres of unleased Federal coal rights in 
Montana. The Department supports the goals of H.R. 1158, but 
has some concerns, and would like to work with the Subcommittee 
to make some refinements to ensure that the exchange is equal 
value, and that the appraisals are done consistent with the 
Department of Justice appraisal standards, and to make its 
implementation practical.
    H.R. 1158 would bring closure to the Tribe's claim against 
the United States dating back to 1900, but at a cost to the 
United States and the State of Montana in royalty payments and 
other revenue associated with Federal coal leasing of these 
lands.
    Furthermore, the Bureau of Land Management estimates the 
off-reservation Federal coal rights being conveyed to the Great 
Northern Properties contain nearly twice as much coal as the 
Cheyenne tracts contain.
    In addition, we have some concerns with the language in 
Section 4[a] and 5[c] requiring the conveyance to be carried 
out ``notwithstanding any other Federal law,'' as well as the 
language in Section 5[c] that require the conveyance to be 
carried out within 90 days of receiving the revenue-sharing 
agreement, and would like to work with the Subcommittee to 
address these concerns.
    Last, Section 3[2][d] should be amended to reference the 
appropriate date of March 18, 2011.
    Thank you again for the opportunity to testify on H.R. 1560 
and H.R. 1158, and I would be glad to take any of your 
questions.
    [The prepared statement of Ms. Gillette follows:]

Statement of Jodi Gillette, Deputy Assistant Secretary, Indian Affairs, 

             U.S. Department of the Interior, on H.R. 1158

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Jodi Gillette. I am the Deputy Assistant Secretary for Indian 
Affairs at the Department of the Interior (Department). I am here today 
to provide the Department's position on H.R. 1158, the Montana Mineral 
Conveyance Act. It is an honor to appear today before this new and 
important Subcommittee.
    H.R. 1158 seeks to accomplish the conveyance to the Northern 
Cheyenne Tribe (Tribe) in Montana of about 5,000 acres in subsurface 
mineral rights that the Tribe did not receive in 1900, when it acquired 
the rights to the surface. The subsurface rights are held by a third 
party, Great Northern Properties, which, under the bill, would receive 
in exchange approximately 5,000 acres of unleased Federal coal rights 
in Montana.
    The Department of the Interior supports the goals of H.R. 1158, but 
has some concerns and would like to work with the Committee to make 
some refinements to ensure that the exchange is equal value and to make 
its implementation practical. We would like to work with the Sponsor 
and the Subcommittee to ensure that the exchanges of mineral interests 
are of equal value and that the appraisals are done consistent with 
Department of Justice appraisal standards.
BACKGROUND
    H.R. 1158 states that the Northern Cheyenne Tribe has been wronged 
in two ways by the Federal Government. In 1900, when the reservation 
was expanded, the United States Indian Inspector made efforts to 
purchase private lands within reservation boundaries, but was unable to 
secure subsurface rights in eight sections, about 5,000 acres, from the 
Northern Pacific Railway. The mineral rights to the Cheyenne tracts, as 
they are known, are now held by a successor of the railroad, Great 
Northern Properties.
    Great Northern Properties has other mineral holdings in the area, 
including some near the lands containing the mineral rights they would 
receive in exchange for relinquishing the Cheyenne tracts. These 
holdings are in an area called Otter Creek, east of the Reservation. It 
is the potential mineral development of the Otter Creek area that leads 
to the second claim the Northern Cheyenne Tribe asserts it has against 
the Federal Government.
    The Department of the Interior Appropriations Act of 1998 
authorized the conveyance to the State of Montana of all the Federal 
mineral rights on three Otter Creek tracts, parts of which are located 
within 3 to 4 miles of the Northern Cheyenne Reservation.
    The Northern Cheyenne filed suit in the U.S. District Court in the 
District of Columbia in January 2002 against the Secretary of the 
Interior, to stop the transfer and to assert that extensive coal mining 
so close to its reservation would violate several Federal laws and the 
Federal trust responsibility to the Tribe.
    The Tribe's suit was withdrawn with prejudice when the Tribe 
entered into an agreement with the Montana State Board of Land 
Commissioners guaranteeing tribal consultation on the approval of 
mining plans. The agreement also requires the State Board's support of 
the legislation before you today.
H.R. 1158
    H.R. 1158 requires the Secretary of the Interior to convey to Great 
Northern Properties all interest of the United States in specified 
unleased Federal coal tracts in Montana outside of the Tribe's 
reservation, if Great Northern Properties conveys to the Northern 
Cheyenne Indian Tribe all its mineral interests underlying specified 
tracts of land within the Tribe's reservation.
    The bill also requires the Northern Cheyenne Tribe to waive legal 
claims related to the failure of the United States to acquire in trust 
for the Tribe the private mineral interests underlying the Cheyenne 
tracts as part of the Tribe's reservation. These waivers should be 
drafted and included in the bill. The bill instructs the Tribe and 
Great Northern Properties to notify the Secretary in writing when they 
have agreed to a formula for the sharing of revenue from the coal 
produced from the Federal tracts. Finally, we recommend that Great 
Northern Properties also waive its potential claims against the United 
States.
    H.R. 1158 would bring closure to the Tribe's claim against the 
United States dating back to 1900, but at a cost to the United States 
and State of Montana, in royalty payments and other revenue associated 
with Federal coal leasing of these lands. Furthermore, the Bureau of 
Land Management (BLM) estimates the off-reservation Federal coal rights 
being conveyed to Great Northern Properties contain nearly twice as 
much coal as the Cheyenne tracts contain.
    In addition, a portion of the Federal tracts that the bill defines 
as subject to transfer to Great Northern Properties is included in an 
ongoing Lease by Application process initiated in 2008 by Signal Peak 
Energy, which operates an underground coal mine in the area. An 
Environmental Assessment has been completed for this lease sale, and 
BLM signed a Finding of No Significant Impact and Decision Record in 
April 2011. The decision was made to offer the Bull Mountain No. 1 Mine 
Coal Lease by Application for sale.
    If the lease sale is completed before this legislation becomes law, 
20 percent of the bidder's bonus payment would be due when the bid is 
submitted with the balance of the bonus due when the lease is awarded. 
If a successful bonus bid is received at the sale and all of the other 
requirements are met, then the payment is sent to the U.S. Treasury 
with 48 percent obligated to the State of Montana. If the conveyance 
under this legislation is consummated before the actual issuance of the 
coal lease, then the Federal Government would not receive the balance 
of the bonus payment.
    In addition, we have concerns with language in section 4(a) and 
5(c) requiring the conveyance be carried out ``notwithstanding any 
other Federal law'' as well as the language in Section 5(c) that 
requires the conveyance be carried out within 90 days of receiving the 
revenue-sharing agreement and would like to work with the subcommittee 
to address these concerns. Lastly, section 3(2)(D) should be amended to 
reference the appropriate date of March 18, 2011.
CONCLUSION
    Thank you again for the opportunity to testify on the Montana 
Mineral Conveyance Act. BLM would be glad to work with the Committee on 
any technical issues associated with the land conveyance. I would be 
glad to answer your questions.
                                 ______
                                 

Statement of Jodi Gillette, Deputy Assistant Secretary, Indian Affairs, 

             U.S. Department of the Interior, on H.R. 1560

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Jodi Gillette. I am the Deputy Assistant Secretary for Indian 
Affairs at the Department of the Interior (Department). I am here today 
to provide the Department's position on H.R. 1560, a bill to amend the 
Ysleta del Sur Pueblo and Alabama Coushatta Indian Tribes of Texas 
Restoration Act to allow the Ysleta del Sur Pueblo Tribe to determine 
blood quantum requirements for membership in their Tribe. The 
Department supports H.R. 1560.
BACKGROUND
    In 1987 Congress passed the Ysleta del Sur Pueblo and Alabama and 
Coushatta Indian Tribes of Texas Restoration Act (Restoration Act), 
which restored the federal trust relationship between the federal 
government and the Ysleta del Sur Pueblo (Tribe).
    The Restoration Act, (25 U.S.C. Sec. 1300G-7(a)(2)(i)), prescribes 
membership for the Tribe to only those individuals on the Tribe's 1984 
Membership Roll, and to their descendants with at least 1/8 or more 
Tigua-Ysleta del Sur Pueblo Indian blood and who are enrolled by the 
Tribe. This codified criterion has been adopted into Article 3, Section 
3.01, of the Ysleta del Sur Pueblo Code of Laws. Currently the tribal 
enrollment for the Ysleta Del Sur Pueblo is 1,691 members. Indian 
Affairs cannot find any other instances where a Tribe's membership is 
bound by a blood quantum requirement under Federal statute.
H.R. 1560
    H.R. 1560 would amend the Restoration Act to enable the Tribe to 
determine for themselves the blood-quantum requirements, if any, for 
membership into the Tribe. The proposed amendment would delete the 1/8 
blood quantum requirement and replace the current requirement with 
``any person of Tigua-Ysleta del Sur Pueblo Indian blood enrolled by 
the tribe.'' This amendment would allow the Tribe to determine their 
own enrollment criteria, as any other federally-recognized tribe has 
the right to do.
    While the legislation would allow the Tribe to determine the size 
of its own membership, the Department does not expect an additional 
Tribal Priority Allocation base funding amount to be awarded to the 
Tribe.
    Indian tribes have the inherent authority to determine their 
membership. The Supreme Court has noted, ``A tribe's right to define 
its own membership for tribal purposes has long been recognized as 
central to its existence as an independent political community.'' See 
Santa Clara Pueblo v. Martinez, 436 U.S. 49 (1978). The Department is 
in receipt of copies of tribal resolutions from the Ysleta del Sur 
Pueblo Tribal Council in support of the change to the blood quantum 
requirements stated within the legislation. The Department supports the 
Tribe's request to determine its criteria for membership, which is 
consistent with the Administration's support for the policies of Self-
Governance and Self-Determination for all federally recognized tribes.
CONCLUSION
    This concludes my prepared statement. I will be happy to answer any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. McClintock. [Presiding.] Thank you very much, and that 
is what we will do now. I have just one question for you, and 
that is, this does deal with sovereignty issues, does it not?
    Ms. Gillette. Correct.
    Mr. McClintock. Well, why would the Department object to 
the phrase ``notwithstanding any other law?'' Sovereignty is 
absolute, is it not?
    Ms. Gillette. Sovereignty is, I am sorry?
    Mr. McClintock. Absolute. You are either sovereign or you 
are not.
    Ms. Gillette. I would like to get back to you on that, 
unless you have a response, if I could.
    Mr. McClintock. All right, I appreciate that. That is my 
only question. I will defer to the Ranking Member, Mr. Lujan.
    Mr. Lujan. Thank you very much, Mr. Chairman. In regards to 
H.R. 1560, Ms. Gillette, what was the policy behind the Federal 
Government setting the one-eighth-degree blood quantum 
threshold to the Tewa Indians in the Restoration Act?
    Ms. Gillette. The funding? I am sorry.
    Mr. Lujan. What was the policy behind the establishment of 
that policy?
    Mr. Lujan. Of establishing--I don't think that the 
Department, I think Congress put that into the law. Are you 
talking about the one-eighth-degree blood quantum?
    Mr. Lujan. Correct.
    Ms. Gillette. I am not, I don't believe that we had a 
policy on that. I don't----
    Mr. Lujan. It was at the direction of Congress that the 
Department established the one-eighth-degree threshold?
    Ms. Gillette. Actually, it is part of the recognition, or 
the Restoration Act that was passed by Congress. So the 
Department doesn't have blood quantum requirements as part of 
how they interact with tribes; that is an inherent sovereign 
right of tribes to determine their own membership.
    Mr. Lujan. So going back to your testimony, it appears to 
indicate that the Administration supports H.R. 1560, is that 
correct?
    Ms. Gillette. That is correct.
    Mr. Lujan. In regards to H.R. 1158, in your testimony you 
imply that the land exchange authorized by this bill would 
result in a windfall profit in royalties to GNP. This statement 
is based on an estimate that the underlying mineral estate on 
the Federal tracts is worth twice as much as the mineral estate 
underlying the Cheyenne tracts.
    Yet this bill would settle claims against the United States 
that could be worth millions in liability. Moreover, the bill 
would compensate the Tribe for its loss by authorizing a 
revenue-sharing agreement with GNP for any coal developed on 
these tracts.
    As trustee, isn't it in the Department's interest to see 
this bill enacted so as to close the door on its liability, 
rather than engage in potential costly litigation?
    Ms. Gillette. I believe that it is in the best interest for 
all parties that we are supportive of the legislation. I 
believe that the Department would like to work with the 
Subcommittee to address some of those concerns of valuation, 
and we would like to have further discussion with that.
    Mr. Lujan. Mr. Kerr--oh, he is on the next panel. I 
apologize.
    Ms. Gillette, on the 20 percent of the bidder's bonus 
payment is due to the United States when the bid for a lease 
sale is submitted, and the remainder of such payment is due 
when the lease is awarded. What is a bonus payment?
    Mr. Leverette. Yes. A bonus payment is a payment that the 
successful bidder pays, or a bidder pays when they are bidding 
on a competitive co-lease. A competitive co-lease consists of 
three payments: the royalty payment, which is for underground 
mines, 8 percent; the bonus bid; and the rental, if production 
is not occurring.
    So the bonus is a payment that is made over and above the 
royalty payment, and you bid that bonus at the time of the 
competitive bid or the competitive sale. The normal process is 
20 percent is due at the time of the bid. And we have a policy 
that some sales can pay the balance over five years, but for 
this sale we are trying to, the payment would be required, the 
full payment would be required at the issuance of the lease.
    Mr. Lujan. So under the current policy, the remaining 
portion or time period for that bonus payment is five years? Is 
that what I just heard?
    Mr. Leverette. Yes.
    Mr. Lujan. Is the 20/80 percent scheme current policy?
    Mr. Leverette. Yes. And the policy says that some sales, we 
should do the deferred bonus, but it doesn't say we have to do 
all of them that way.
    Mr. Lujan. I appreciate it. Thank you very much, Mr. 
Chairman.
    Mr. McClintock. Mr. Gosar.
    Dr. Gosar. More of a comment, Ms. Gillette, in regards to 
the appraisal process. We are finding that in Arizona, as well 
as in any other appraisal process, this is arduous. So I would 
hope that we would have a streamlined effect in that appraisal 
process. Because that will be the holdup. Because we are seeing 
that all the way across the board.
    So I would actually urge some urgency in regards to 
streamlining that appraisal process.
    And then just a real quick question also to my colleague on 
the other side of the aisle. It is Congress's jurisdiction in 
regards to oversight of the tribes, is it not?
    Ms. Gillette. I believe so.
    Dr. Gosar. Thank you.
    Mr. McClintock. Are you done? That is it? OK. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Ms. Gillette, going 
back to H.R. 1560, it seems that one of the uniqueness of what 
has led to this bill is the fact that in 1968, when the Tribe I 
guess was first recognized, for some reason the fiduciary 
responsibility was transferred to the State of Texas, it 
appears. And somehow the Restoration Act then took that back. 
Am I correct about that?
    Ms. Gillette. Yes.
    Ms. Hanabusa. And the one-eighth blood quantum, was that 
something that was instituted in 1968? Or was that something 
that happened in the Restoration Act?
    Ms. Gillette. I would have to check back on the record for 
that. But in the Restoration Act, that is where the blood 
quantum was specified as part of the legislation, so it was 
actually in the Act.
    Ms. Hanabusa. Is there a reason why, or are you aware of 
the reason why the transfer or the taking back from the State 
of Texas of this responsibility, in the Restoration Act? Was 
there something improper about the original transfer of that 
obligation to the State of Texas?
    Ms. Gillette. I am not sure. I am sorry, I don't have the 
specifics of that history.
    Ms. Hanabusa. Could you get back to me on that?
    Ms. Gillette. Sure.
    Ms. Hanabusa. Switching to H.R. 1158, in reviewing the bill 
itself, there is, of course, Section 5, which speaks to the 
waiver of legal claims. That statement is also found in Section 
2, subpart [8]. And it just refers to the Tribe will waive all 
legal claims against the United States.
    Is there a process where, for example, the Secretary would 
be satisfied that the Tribe has waived? In other words, you 
know, I don't want to see us faced with some other kind of 
class action suit because the waiver is improper.
    So in your mind, when this says the Tribe will waive, who 
or what type of transaction is going to be necessary to ensure 
that there has been a proper waiver?
    Ms. Gillette. I will have to get back to you on that. I am 
not sure what the--that is probably a question that I would ask 
my solicitor.
    Ms. Hanabusa. OK. Now, in addition to that, along those 
same lines, in reading your testimony, you also recommend that 
the Great Northern Properties waive its potential claims 
against the United States as well. I did not find anything like 
that in the bill. So you are asking that a section like that be 
included?
    Ms. Gillette. That is correct.
    Ms. Hanabusa. When you are asking for their waiver of 
potential claims against the United States, what kinds of 
claims were you thinking of when that was written into your 
testimony?
    Ms. Gillette. I will defer to my colleague.
    Mr. Leverette. I think we were thinking of some type of 
takings claim for their resources on the reservation, their 
mineral resources.
    Ms. Hanabusa. That is what I thought you were going to say. 
So are you saying that though it appears that we are talking 
about the same kinds of claims, both that the Tribe would have 
for our failure to protect their interests and the underlying 
mineral rights; and then you are also saying that the Great 
Northern Properties has basically somehow vested in those same 
claims? Is that what the concern is?
    Because we are talking about the same mineral rights, 
aren't we? Subsurface mineral rights.
    Mr. Leverette. Yes.
    Ms. Hanabusa. So you are saying that you believe that what 
has happened in this transaction is that the tribes have a 
legal claim, because the government did not protect their 
interests in those claims; and Great Northern Properties, 
through this action way back when, is somehow vested in the 
same rights, even if the government may not have legally 
protected the people who truly have the rights to those claims? 
Am I understanding you correctly?
    Mr. Leverette. Yes, and that is what this bill is doing. It 
will give Great Northern additional mineral rights, and convey 
the subsurface minerals to the tribe on the reservation. And 
once that agreement is made, we would hope that all the 
litigation would, would be removed, or not brought.
    Ms. Hanabusa. I think I understand what you are saying. But 
can you write up for me as well these potential claims against 
the United States that you are envisioning? And this is on page 
2, paragraph, the second paragraph under H.R. 1158. Thank you 
very much. Thank you, Mr. Chair.
    Mr. McClintock. Thank you. I want to thank Ms. Gillette for 
her testimony today, and for Mr. Leverette's expertise. We will 
now dismiss this panel, and I will call up our final panel of 
witnesses this morning.
    They are Joe Fox, the Vice President of the Northern 
Cheyenne Tribe; Carlos Hisa, the Lieutenant Governor or the 
Ysleta del Sur Pueblo; and Charles Kerr, President and CEO of 
Great Northern Properties.
    Again, as a reminder, your oral statements are limited to 
five minutes. However, your written statement will appear in 
full in the hearing record. We thank you for joining us this 
morning.
    Also to remind you the microphones are manually activated, 
so be sure to push that button and get that green light on your 
microphone base. And we have the lighting system, which has 
already been explained. So with that, I will introduce again 
the Hon. Joe Fox, Jr., Vice President of Northern Cheyenne 
Tribe.

          STATEMENT OF JOE FOX, JR., VICE PRESIDENT, 
                    NORTHERN CHEYENNE TRIBE

    Mr. Fox. Good morning, Mr. Chairman, Subcommittee members. 
I am Joe Fox, Jr., Vice President of the Northern Cheyenne 
Tribe. Thank you for the opportunity to convey my Tribe's total 
support of H.R. 1158.
    We greatly appreciate Rep. Rehberg's championing of this 
much-deserved bill for our Tribe. At this time I would like to 
introduce two gentlemen, William Walksalong, former Chairman of 
the Northern Cheyenne Tribe, also Administrative Assistant to 
the President's Office, LeRoy Spain, and also Steve Chestnut, 
Chief Legal Counsel for the Northern Cheyenne Tribe. These two 
gentlemen have been involved in this bill process for 18 years.
    The following summarizes somewhat the points discussed at 
greater length in my written submission to the Committee on 
H.R. 1158. It is of tremendous importance to my people. We have 
been pursuing remedies for the issues it addresses for decades.
    Our reservation is truly the homeland of the Northern 
Cheyenne people. Ninety-nine percent of the surface is owned 
and controlled and used by the Northern Cheyenne, and 90 
percent of the resident population is Northern Cheyenne. Of all 
subsurface, except for each section of subsurfaces owned by 
Great Northern Properties, have been addressed by H.R. 1158, is 
owned by the Tribe as a whole.
    H.R. 1158 will correct a 111-year-old Federal error, which 
had an unintended effect of denying the Tribe, from 1900 to the 
present, ownership of these eight sections of subsurface. H.R. 
1158 would consolidate our land base, prevent development of 
that subsurface without our consent, and otherwise protect our 
homeland. Protection of our reservation is of the greatest 
importance to us.
    H.R. 1158 will also help address a major problem which has 
plagued us for 40 years, arising from the intensifying pattern 
of coal-related development encircling our reservation. Much of 
this development has been sponsored and facilitated by the 
Tribe's trustee, the United States, and has provided vast 
revenues to the United States.
    As shown on two maps attached to my written statement, our 
reservation has been surrounded by coal-related development. 
Although the development provides tremendous revenue in the 
form of bonuses, rents, royalties, and multiple tax revenues to 
the United States, the State and its subdivisions, we receive 
none of that revenue.
    Also, the Tribe and its members barely share in the upside 
of the development, such as jobs, commercial opportunity, 
although our unemployment rate averaged around 65 percent. 
Thus, we get negatives and virtually none of the positives of 
the nearby development that surrounds our homeland.
    Public services and facilities on the reservation are 
chronically substandard and inferior to those of the off-
reservation communities. This is made worse by the increasing 
pressures of surrounding development.
    H.R. 1158 would enable the Tribe to acquire, from GNP at 
least, a 40 percent interest in the royalties. GNP would 
receive from the leasing of the coal tracts, GNP would receive, 
under H.R. 1158, the Bowl Mountain tracts. And if ever 
developed, the Bridge Creek tracts. Thus, for the first time, 
the Tribe would receive development-related funding to address 
the substandard and declining conditions on the reservation. 
The funding would come from royalties received by GNP under an 
arrangement the Tribe conceived, and then negotiated with GNP.
    H.R. 1158 is a key element of the comprehensive settlement 
arrangements developed and negotiated by the Tribe with the 
Montana Congressional Delegation. Sen. Campbell, State of 
Montana, Great Northern Properties, in consultation with the 
Secretary of the Interior, Gale Norton, and a bill in Montana 
State Office and the Bureau of Indian Affairs.
    The Tribe initiated that settlement effort in 2001, 
triggered by Federal legislation causing the transfer of the 
Federal Otter Creek coal tracts to the State of Montana. Those 
massive tracts lie just east of our reservation, and combine 
with adjoining private and State coal, contain about 1.2 
billion tons of minable coal.
    It was very difficult to achieve this settlement. Many 
parties were involved, and we pursued it with great 
determination and honor all settlement commitments we made, 
including dismissal of litigation we had filed against the 
United States challenging the Otter Creek transfer.
    The settlement arrangements also called for Federal 
legislation that would provide $70 million in Federal impact 
funding to the Tribe. Unfortunately, we had to delete the 
funding from the bill with the current Congressional realities. 
Therefore, the impact funding we would now receive is from 
royalty interests we proposed and negotiated with GNP. In the 
future, our Tribe will continue to pursue the $70 million in 
impact funding.
    [The prepared statement of Mr. Fox follows:]

              Statement of Joe Fox, Jr., Vice President, 
                 Northern Cheyenne Tribe, on H.R. 1158

    Chairman Young and Committee Members, I am Joe Fox, Jr., Vice 
President of the Northern Cheyenne Tribe of Montana. I was elected as 
Vice President for a four-year term by vote of our Tribal membership. 
Prior to that, I was elected by the people to multiple terms on our 
Tribal governing body, the 11-person Northern Cheyenne Tribal Council. 
I am pleased to be here today to testify on behalf of the Northern 
Cheyenne Tribe in strong support of H.R. 1158, the Montana Mineral 
Conveyance Act. I am accompanied by Steve Chestnut, who has been the 
Tribe's principle attorney since 1973, and has represented the Tribe in 
all of the matters referred to in our submissions to the Committee.
    If H.R. 1158 is enacted, several long-standing paramount issues for 
the Northern Cheyenne will finally be resolved. First, our Reservation 
will finally be made whole by rectifying an error made by the United 
States over a century ago. Second, commitments made to the Tribe in 
2002 by the Montana Congressional delegation, others and the State of 
Montana to help mitigate the adverse effects on our Tribe and 
Reservation of 40 years of coal-related development encircling our 
Reservation, largely sponsored and facilitated by the Federal 
Government, notwithstanding its trust responsibilities to the Tribe, 
will be fulfilled. H.R. 1158 will enable the provision to the Tribe by 
Great Northern Properties (GNP) of a desperately needed revenue stream 
to help mitigated the many impacts of the encircling development on our 
Reservation and people. This pattern of development culminated most 
recently in the Congressionally-directed transfer to the State of 
Montana in 2002 of the massive federal Otter Creek coal tracks adjacent 
to our reservation.
    Attached to my written statement is a document that summarizes the 
Northern Cheyennes' dramatic struggles over the past 40 years with that 
coal-related development, which provides perspective on why the 
enactment of the Montana Mineral Conveyance Act is just and 
appropriate. I also have attached copies of a letter signed by each 
member of the State of Montana's Board of Land Commissioners 
(consisting of the State's five top elected officials), a resolution of 
the Montana-Wyoming Tribal Leader's Council, and a resolution of the 
National Congress of American Indians, each supporting H.R. 1158 and 
urging its passage. Finally, I have included two maps--one showing how 
our Reservation has been encircled by coal-related development 
projects, and another showing our Reservation, its communities and the 
network of on-Reservation roads serving those off-Reservation projects. 
As discussed in greater detail herein, these projects visit extensive 
unmitigated impacts on our Reservation and people, while the Tribe and 
its members are excluded from the compensating benefits (impact 
funding, employment, and commercial opportunity) of such development.
    We Northern Cheyenne cherish our land. To us, our land is 
everything. It has provided for our families for centuries. After we 
were forcibly relocated to the Oklahoma Territory in 1878 as 
retribution for our resistance to White domination and our 
participation in the Battle of the Little Bighorn (the Custer Battle), 
we (uniquely among all other tribes so relocated) trekked back to our 
historic homeland in Montana. This journey came at great cost to the 
Tribe--death, imprisonment and other deprivations--as we were hounded 
along the way by thousands of hostile military and settlers. We 
eventually made it back to Montana to reclaim our homeland and the 
Northern Cheyenne Reservation was later formally established by 
Presidential Executive Order in 1884.
    Today the Northern Cheyenne Reservation is bordered on the west by 
the much larger Crow Indian Reservation and on the east by the Tongue 
River. Our Reservation is truly the homeland of the Northern Cheyenne. 
The Reservation population is approximately 90% Northern Cheyenne. Non-
Indian presence on the Reservation is minimal. A majority of our more 
than 9000 Tribal members reside on the Reservation. Traditional 
Cheyenne values and culture still thrive on the Reservation and the 
Cheyenne language is still spoken. The Reservation remains culturally 
distinct from the surrounding land and communities.
    Of its 447,000 acres, 99% of the Reservation surface is owned, 
controlled and used by the Tribe and its members. The primary land uses 
are cattle grazing, timber harvesting (entirely suspended for years due 
to adverse market conditions), and ceremonial and subsistence use. Non-
Indian use of Reservation lands is minimal. The entire Reservation 
mineral estate--except for the eight sections that are the subject of 
H.R. 1158--is owned by the Tribe as a single entity. Because of the 
paramount importance to us of our land, we have a sacred duty to pursue 
ownership of the eight sections. Securing ownership of those eight 
sections has been a priority of the Northern Cheyenne for decades and 
H.R. 1158 will finally accomplish that goal.
    The eight sections of subsurface are also of great commercial 
value--50 years ago, the then-owner Burlington Northern Railroad--
leased that subsurface to Peabody Coal Company for valuable 
consideration. Although those leases are no longer in force, we don't 
want to suffer that experience again. But, without ownership of that 
subsurface, we at best have limited power over, and would suffer 
impacts and gain scant benefits from, its development.
    We have been continuously deprived of ownership of the eight 
sections because of a federal error which occurred at the end of the 
19th century. Because of hostilities and violence then prevailing 
between Northern Cheyenne and legal and illegal non-Indian settlers on 
or adjacent to the Tribe's 1884 Reservation, Congress directed Indian 
Inspector James McLaughlin to buy out the legal and non-Indian illegal 
interests on and near the Reservation, so that the Reservation could be 
enlarged eastward to the middle of Tongue River. McLaughlin proceeded 
to do so, paying the legal and illegal settlers between $1500 and $2000 
per claim. In contrast, Inspector McLaughlin paid only $25 per family 
to Northern Cheyennes then living on federal land previously allocated 
to them east of the Tongue River. The Reservation was then expanded 
eastward to mid-channel of the Tongue River by Presidential Executive 
Order in 1900.
    In performing his duties, Inspector McLaughlin made a critical 
error. Although he purchased all lands within the Reservation (as 
expanded) then owned by Northern Pacific Railway, Inspector McLaughlin 
missed eight sections of subsurface beneath surface the Railway had 
previously conveyed to others. For 111 years, the United States has 
failed to remedy this error by buying this valuable mineral estate for 
the Tribe. Approximately 20 years ago, Great Northern Properties (GNP) 
purchased the entire inventory of railroad subsurface in Montana and 
elsewhere, including the eight sections on the Northern Cheyenne 
Reservation. With the willing cooperation of GNP and the Tribe, the 
United States is now in a position to remedy that continuing federal 
omission. The Northern Cheyenne have waited many decades for this 
opportunity.
    The Northern Cheyenne Reservation lies in the heart of Montana's 
Powder River coal region. As shown in the attached maps, the 
Reservation is surrounded on all sides by major existing and proposed 
coal-related projects and includes a network of roads used by these 
off-Reservation projects to travel through the reservation and the 
region. This pattern of development produces major influxes of 
newcomers to the area and leads to undesirable socio-economic effects 
on the Tribe, including on-Reservation crime, traffic and accidents. 
Because Tribal government lacks adequate legal authority and resources 
to deal with these non-Indian incursions, there are heightened tensions 
between Tribal members and non-Indian intruders.
    Public services and facilities on the Reservation have long been 
grossly inadequate, both in absolute terms and in marked contrast to 
off-Reservation communities. The surrounding development increases 
pressures on those public services and facilities. Severe deficits have 
been documented Reservation housing, water and sewer, solid waste, 
education, health care, law enforcement, fire protection, and 
transportation. Those deficits increase as on-and off-Reservation 
populations increase with development.
    With no tax base and minimal on-Reservation economic development, 
the Tribe thoroughly lacks the financial resources to address these 
socio-economic impacts and respond to the increased demands. In 
contrast, the surrounding development produces tremendous public 
revenues (lease bonuses, rents and royalties, state production taxes, 
real and personal property taxes, and other exactions) for the United 
States, the State and the counties and municipalities adjoin the 
Reservation. The Tribe is privy to none of these public revenues.
    Also, although the Northern Cheyenne constitute the largest 
indigenous community in the immediate area, and suffer chronic 
unemployment rates averaging 65%, very few Northern Cheyenne are 
employed in these off-Reservation projects. Indeed, reservation 
unemployment rates have not improved during the course of this 
development of coal mines and power plants in the vicinity of the 
Reservation. Historically, Native Americans employment in Montana's 
Powder River Basin mines has averaged approximately only 3.5% of the 
total labor force, absent any special hiring agreement mandates, even 
though the Northern Cheyenne represent the area's largest, most 
available and neediest labor pool. State law does not authorize the 
holders of State mining leases to offer any employment preferences to 
local Native Americans. Relief in this area occurs only in the few 
situations where the Tribe, through aggressive legal action, wrests a 
special employment program from a typically hostile project, with 
predictable ensuing enforcement difficulties. The bottom line is that 
average per capita income on the Northern Cheyenne Reservation is a 
minor fraction of that in surrounding communities, and the Tribal 
unemployment rate is many multiples of the off-Reservation rate.
    In summary, because of the very weak economic ties between the 
Reservation and surrounding off-Reservation communities, the Northern 
Cheyenne have not shared in the economic gains from regional coal 
development. The Reservation does not benefit significantly in terms of 
jobs, construction contracts, general business activity, or increases 
in Tribal governmental revenues from the regional increase in economic 
activity generated by additional off-Reservation coal development. 
Thus, the Northern Cheyenne suffer an array of major adverse impacts 
from the off-Reservation (largely federally-sponsored or facilitated) 
coal-related development and enjoy few, if any, of the compensating 
benefits enjoyed by the United States, the State and surrounding 
communities and residents.
    The Congressionally-directed transfer in 2002 of the massive 
federal Otter Creek Coal Tracts to the State of Montana perpetuates and 
exacerbates these inequities. The Otter Creek Tracts comprise about 
8,000 acres of coal lands along both sides of Otter Creek south of 
Ashland, Montana, and just east of the Northern Cheyenne Reservation. 
The Tracts are estimated to contain 533 million tons of recoverable 
coal reserves. The surface rights to the Otter Creek Tracts are held by 
private landowners, the State of Montana and the Bureau of Land 
Management. Otter Creek is a tributary of the Tongue River, which forms 
the eastern boundary of the Northern Cheyenne Reservation.
    Although outside the boundaries of the Reservation, the Otter Creek 
Valley is within the ancestral territory of the Northern Cheyenne. 
Following bloody conflicts between the United States government and the 
Tribe in the latter part of the 19th century, the United States 
reserved lands for the Northern Cheyenne both east and west of the 
Tongue River. With the assistance of the United States, many Northern 
Cheyenne families homesteaded under federal law east of the Tongue 
River along Otter Creek. These families were later induced to move by 
the federal government, for unconscionably low consideration of $25 per 
family, onto the Northern Cheyenne Reservation when the final 
boundaries of the Reservation were established in 1900. Consequently, 
the Otter Creek area has great legal, historical and cultural 
importance to the Tribe and its members. Ancestors of current Tribal 
members are buried in the Otter Creek are.
    For the past 40 years, all of the foregoing Northern Cheyenne 
concerns and issues regarding encircling coal-related development have 
been very publically and repeatedly raised by the Northern Cheyenne to 
the United States, the State and industry, as described in the memo 
submitted contemporaneously herewith. Most recently, the Tribe did so 
in connection with the plan to transfer the Otter Creek Tracts to the 
State.
    The Otter Creek Tracts contain more than half a billion tons of 
federal coal and are checkerboarded with more than 700 million tons of 
private and other State coal. The result is the single largest block of 
currently available, developable coal reserves in Montana. Those 
resources have now been entirely leased to a wholly-owned subsidiary of 
Arch Coal, Inc., the Nation's second largest coal mining company, and 
Arch is aggressively proceeding toward development.
    Out of the above concerns, the Tribe, in extensive correspondence 
and meetings with all major interests, strongly and repeatedly 
expressed opposition to the proposed transfer of the Otter Creek tracts 
to the State, without accompanying mitigation measures. Solely on its 
own initiative, throughout 2001 the Tribe met separately and 
extensively with members of Congress, the Governor, the other top 
elected officials of the State, the Secretary of the Interior, BLM, 
BIA, industry and other interested parties, while the Secretary honored 
a commitment sought and obtained by the Tribe to withhold the Otter 
Creek transfer while the Tribe pursued settlement discussions.
    With scant resources for travel, professional assistance and other 
necessary expenses--but armed with a long and remarkably successful 
record of advocating and demonstrating the legitimacy of its concerns--
the Tribe's settlement initiative bore fruit:
        1.  The Tribe proposed and successfully negotiated and drafted 
        a Settlement Agreement with the Montana Board of Land 
        Commissioners, which committed the State to the following:
                a.  In leasing the Otter Creek Tracts to industry, the 
                State will require that the lessee, in close 
                consultation with the Tribe, adopt special Operating 
                Plans aimed at providing:
                        -  enhanced Project employment opportunity to 
                        Indians (principally Northern Cheyennes), 
                        including training at all levels and for 
                        advancement;
                        -  enhanced opportunity to Northern Cheyenne 
                        businesses to obtain Project contracts for 
                        goods and services;
                        -  an on-Reservation conduct program designed 
                        to encourage Project employees and truckers to 
                        behave appropriately while on the Reservation;
                        -  enhanced environmental protection for the 
                        Reservation; and
                        -  enhanced protection for Northern Cheyenne 
                        historic, cultural, religious and burial sites 
                        in the conduct of Project operations.
                b.  State Land Board support for the improvement of 
                certain off-Reservation roads in the area.
                c.  State Land Board support for cooperative law 
                enforcement agreements among the Tribe and State and 
                county law enforcement agencies.
                d.  State Land Board support for legislation along the 
                lines now before this Committee (including promised 
                federal impact funding for the Tribe, which has now 
                been deleted from the bill), even though departure of 
                the Bull Mountains tracts and the Bridge Creek tracts 
                from federal ownership will eliminate the State's half-
                interest in proceeds of federal leasing of those 
                tracts.
    In return for the foregoing State commitments, the Tribe agreed to 
dismiss with prejudice a lawsuit it had filed in Federal District Court 
in Washington, D.C. to enjoin the Secretary's transfer of the Otter 
Creek Tracts to the State. The Tribe filed that action on the eve of 
consummation of the Otter Creek settlement, upon receiving a tip from 
an informed source that--notwithstanding her standstill commitment and 
without notifying the Tribe--the Secretary was about to convey the 
tracts to the State. After consummating the Settlement Agreement with 
the State, as promised the Tribe immediately dismissed the lawsuit with 
prejudice.
    As part of its settlement initiative, the Tribe on its own 
initiation also approached GNP with a proposal to resolve by agreement 
the 111-year old federal error which deprived the Tribe of ownership of 
the eight sections of Reservation subsurface now owned by GNP. The 
Tribe successfully negotiated and drafted a written agreement with GNP 
committing GNP to deed its eight sections of Reservation subsurface to 
the Tribe if GNP receives off-Reservation federal coal reserves in 
Montana in lieu thereof. Because the eight Reservation sections were 
encumbered by a royalty interest reserved by the Burlington Northern 
subsidiary that sold the eight sections to GNP, the Tribe--GNP 
agreement also provides that the Tribe will receive at least an 
identical interest in the royalties GNP would receive from leasing the 
off-Reservation federal coal--specifically, at least 40% of those 
royalties if the off-Reservation coal is subbituminous and at least 24% 
if the off-Reservation coal is lignite. The federal coal tracts which 
have been identified by GNP and the Tribe for this transaction, and 
which are described in the bill, consist of tracts within the Bull 
Mountains Life of Mine Plan to be mined in the near term, plus tracts 
at Bridge Creek immediately to the east of the Northern Cheyenne 
Reservation.
    Without these Bull Mountain tracts, the Bull Mountains Mine would 
have to shut down within approximately three years, and hundreds of 
jobs and secondary economic development would be lost to that part of 
Montana. In contrast, the Bridge Creek tracts would be mined--if at 
all--many years from now.
    The Tribe's royalty interest in the Bull Mountains tracts would 
provide sorely needed revenue to the besieged and impoverished Northern 
Cheyenne Tribe. The Tribe's royalty interest in the Bridge Creek tracts 
would, if the tracts were ever mined, be the only source of funding 
available to the Tribe to deal with the impacts of the mining of those 
tracts on the margins of the Reservation. All of these tracts contain 
subbituminous coal and the Tribe would therefore hold at least a 40% 
interest in the royalties derived therefrom.
    In negotiating its Otter Creek settlement with all parties from 
beginning to end, the Tribe worked closely and with the encouragement 
of the Montana Congressional delegation (Senators Burns and Senator 
Baucus and Representative Rehberg), Senator Campbell, and the BLM's 
Montana State Office. In addition to legislation facilitating the coal 
transfers described above, the Tribe also negotiated for federal impact 
funding which, for the first time, would provide public revenues to the 
Tribe to help mitigate the accrued and projected impacts of the current 
and projected coal-related development encircling the Reservation. 
Again, largely sponsored and facilitated by the Tribe's trustee (the 
United States), the trustee receives major financial returns from this 
development while visiting a broad range of unmitigated major impacts 
on the Tribe and Reservation. In addition, uniquely among all other 
affected jurisdictions (federal and state), the Tribe is frozen-out 
from any mitigation funding, as well as anything beyond token 
employment and commercial opportunities.
    The understanding reached with Congressional representatives in the 
settlement discussions, was that federal impact funding of $10 million 
per year for seven years would be sought through legislation, 
structured in a way to assure that that financial resource would be a 
permanent resource, available to the Tribe to fund on-Reservation 
public services, facilities and other governmental matters, as new 
development projects proceeded within 25 miles of the Reservation.
    The Tribe, in good faith, relied on all of these commitments in 
consummating the Otter Creek settlement and dismissing its litigation 
against the Otter Creek transfer. However, the impact funding has now 
been withdrawn from the bill in light of the current prevailing 
difficulties in securing any direct funding from Congress. Thus, as 
things currently stand, the proceeds of the proposed Tribal 40% 
interest in the GNP royalties stands as the only potential source of 
impact funding available to the Tribe to cope with the accrued and 
future impacts of surrounding coal-related development, including the 
massive development envisioned at the Otter Creek tracts.
    As it always has, the Tribe has proceeded throughout this episode 
with integrity and honor. The bill, if enacted, would achieve the 
following constructive results:
        (1)  Remediate the federal government's 111-year error which 
        has deprived the Tribe of ownership of eight sections of 
        Reservation subsurface. As the bill provides, in return for the 
        mineral conveyances provided for in the bill, the Tribe would 
        release any and all claims it may have against the United 
        States for that error.
        (2)  Consolidate the Tribe's land base.
        (3)  Prevent GNP (or anyone else) from developing the eight 
        sections without Tribal consent or benefit, irrespective of the 
        long-standing Tribal concerns about Reservation coal 
        development.
        (4)  At long last, provide revenue to the Tribe to help the 
        Tribe cope with the accrued and future impacts of adjoining 
        off-Reservation coal-related development.
        (5)  Address the long-standing injustices suffered by the Tribe 
        from federally-sponsored and facilitated coal-related 
        development in areas near the Reservation, while the Tribe's 
        trustee financially benefits from such development.
        (6)  Reward the Tribe for its self-generated, steadfast and 
        honorable effort to resolve these matters by agreement rather 
        than litigation.
    Again, Chairman Young and Committee Members, I want to thank you 
for your consideration of H.R. 1158, the Montana Mineral Conveyance 
Act. Enactment of this bill will help address many wrongs that have 
been done to the Northern Cheyenne by the United States over the 
centuries. The Tribe did not create the situation we now find ourselves 
in and we hope Congress and the Administration can do the right thing 
and enable the Northern Cheyenne to be in control of their own destiny.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. McClintock. Thank you, Mr. Fox, I am going to have to 
interrupt you. The five minutes has expired. But your full 
testimony will appear in the Committee's record. I thank you, 
and if you will hang on for a moment, we will get to some 
questions in a few minutes.
    Our next witness is the Hon. Carlos Hisa, the Lieutenant 
Governor of the Ysleta del Sur Pueblo. Welcome.

 STATEMENT OF THE HON. CARLOS HISA, LIEUTENANT GOVERNOR OF THE 
            YSLETA DEL SUR PUEBLO INDIAN RESERVATION

    Mr. Hisa. Thank you. Good morning, Mr. Chairman, members of 
the Committee. Thank you for allowing me to come and present. 
It is an honor to be here.
    My name is Carlos Hisa. I am the Lieutenant Governor for 
Ysleta del Sur Pueblo Indian Reservation located in El Paso, 
Texas. With me today I have Chris Gomez, Council Member for the 
Pueblo, and Trini Gonzalez, also Council Member for the Pueblo. 
Once again, thank you.
    With the blessing of our Cacique, we are here asking the 
Committee to consider House Bill H.R. 1560. House Bill H.R. 
1560 will allow the Pueblo to determine its own membership. It 
is something that every other nation and tribe here in the 
United States of America has the ability of doing--so we are 
just coming here asking for parity, fairness, to be able to do 
the same.
    This bill is the same bill that was introduced by 
Congressman Reyes on the last session. It was House Bill H.R. 
5811. The bill passed with no problems, no opposition here from 
the House, but it failed to pass in the Senate because of an 
inaccurate report by the CBO. The CBO stated that the 
additional membership would have to come along with additional 
funding from the Federal Government. Again, that was an 
inaccurate statement. You heard earlier from a BIA 
representative stating it would not affect the funding, current 
funding situation. And also in my written testimony you will 
find a letter from IHS and BIA stating the same, that funding 
is not based on population, so it will not affect any funding 
that we are receiving currently from the Federal Government.
    In addition to that, I also want to add that is a very 
important issue for our Pueblo. I have been in office for 10 
years, and ever since I have been elected this has been a 
priority for Pueblo. Thanks to the efforts of Congressman Reyes 
and his support, we have come year after year and tried to get 
this passed.
    Last week, June 13 was a very special day for the Pueblo. 
It is their annual feast day. It is the biggest day of 
celebration and tradition and ceremony for the Pueblo. We had 
over 101 participants dancing in 103-degree weather. That 
doesn't include the people helping in the kitchen, the 
chancellors, everybody else that was helping.
    In the group of dancers, there was, my daughter was 
dancing. She is 13 years old. She was there because she wanted 
to be there. She participated from 6 o'clock in the morning to 
8:45 at night, when we, it was approximately 8:45 when we 
terminated the feast day.
    Actually, she was there because she wanted to. She 
understands our way of life. She recognizes that our efforts 
from our ancestors to remain Tewa and just fight for what we 
believe in is something that we cannot let die.
    She does not meet the quantum requirements. That day she 
was Tewa. She is Tewa. And nobody asked for her blood quantum 
where she stood. She just participated because it comes from 
the heart, and she is considered part of the Pueblo.
    The question we need to ask each other is if my daughter 
decides to run for a position on Council in the near future, 
will she be recognized as a legitimate Council member, as a 
legitimate tribal member, by the Federal Government? Is that, 
that actually threatens who we are as a people, and our future, 
and our existence.
    So with that, I ask that the Committee consider and support 
the passage of House Bill H.R. 1560. I am here to answer any 
questions that you might have, and thank you once again.
    [The prepared statement of Mr. Hisa follows:]

         Statement of The Honorable Carlos Hisa, Lt. Governor, 
                  Ysleta del Sur Pueblo, on H.R. 1530

    Good morning Mr. Chairman, honorable members of the Indian and 
Alaska Native Affairs Sub-Committee. My name is Carlos Hisa. I am a 
member of Ysleta del Sur Pueblo located in El Paso County, Texas. For 
the past 10 years I have served as the Lt. Governor of the Pueblo. My 
term of office is one year. The matter under consideration has been a 
priority for the Pueblo since before my first term.
    Any assessment of last year's elections must acknowledge the 
American spirit for local control and cost constraint. The bill, H.R. 
1530, embodies such spirit. This bill is about local freedom--to 
determine the destiny of one's own community.
    H.R. 1530 is about freedom--freedom from intrusive federal control. 
Beginning in the 1970s, this Congress embarked on a new federal Indian 
policy. You rejected the destructive policies of termination of Indian 
tribes, assimilation of Indian people and their culture, and the 
dispossession and despoiling of Indian lands. Instead, you created the 
present self-determination era of Indian law to free Indian tribes from 
an overreaching federal government. This Congress has encouraged Indian 
tribes to take up the mantle of self-government as distinct and 
independent political entities. Critical to that task is the ability of 
an Indian tribe to determine its own membership. The Supreme Court has 
noted, ``A tribe's right to define its own membership for tribal 
purposes has long been recognized as central to its existence as an 
independent political community.'' See Santa Clara Pueblo v. Martinez, 
436 U.S. 49 (1978).
    The Pueblo has occupied its present location since the Spaniards 
removed it from New Mexico during the Pueblo Revolt of 1680, which is 
twice as long as the existence of the State of Texas. It is the longest 
continually occupied community in Texas. It is the only Indian Pueblo 
in Texas. It recently rejoined the All Indian Pueblo Council after 
being absent for over 330 years. The Council now comprises twenty 
Pueblos.
    In 1968, toward the end of the termination era, Congress recognized 
the Pueblo as an Indian tribe and transferred federal trust 
responsibilities for the Pueblo to the State of Texas. On August 18, 
1987, the United States Congress restored the Federal trust 
relationship between the United States and the Pueblo. In the 
Restoration Act, Congress imposed a 1/8th Tigua blood quantum 
requirement for membership.
    No other Indian tribe in Texas is subject to a congressionally 
mandated blood quantum limitation on its membership. No other Pueblo is 
subject to such a blood quantum limitation. Except for two early 
termination era enactments, Congress has subjected no other tribe in 
the United States to such a blood quantum limitation. In fact Congress 
has declined to include such a blood quantum limitation on those Indian 
tribes which Congress has recognized (five tribes) or restored to trust 
relationship (two tribes) subsequent to the Pueblo's Restoration Act. 
With the exception of Ysleta del Sur Pueblo, Congress has not imposed a 
blood quantum limitation on any tribe in over half a century.
    Ysleta del Sur Pueblo is a tribe of Tigua Indians. To be Tigua is 
to believe in the power of the drum, the heartbeat of our community; to 
respect the authority of the Cacique; and to revere our traditions. 
Unfortunately, the blood quantum limitation has had the effect of 
preventing Tiguas from being members. At present, sixty-six percent of 
tribal members lack a 1/4 blood quantum. Absent the other parent having 
sufficient Tigua blood quantum, the children of sixty-six percent of 
tribal members cannot be members of the Pueblo despite being Tigua. 
This includes my three daughters.
    Our young men and women are vibrant Pueblo people who are part of 
our community. Many aspire to serve our Pueblo, but do not meet the 
blood quantum limitation to be a member. They participate in our 
cultural events, they study our history, they engage in community 
service, they learn and speak the Tiwa language, and they understand 
the importance of carrying the traditions of our Pueblo forward. These 
``descendants'' are a part of our community and our people recognize 
them as legitimate members. They are Tigua. They are our future, our 
hope, but they will not be able to serve as Tribal Councilmen and 
Councilwomen, offices that are older than the office of President of 
the United States. They will not be eligible for services from the 
Pueblo.
    They live on our reservation and interact with our members who are 
their mothers, fathers, grandfathers, grandmothers, cousins, uncles, 
aunts, and neighbors and influence the entire community for good or for 
bad. They must be treated like citizens of our Pueblo, but if not 
included as members they will not be subject to the jurisdiction of the 
Pueblo. The inability to exert jurisdiction over people who are the 
children of many of our members has a negative social impact on our 
Pueblo.
    Passage of H.R. 1530 frees the Pueblo to make all Tigua members 
rather than accepting only those who meet the requisite blood quantum 
but who may otherwise be anything but ``Tigua.'' Passage of H.R. 1530 
assures the future of the Pueblo and the continued security of its 
people and neighbors without cost to the federal government.
    The legislative history of the Pueblo's Restoration Act records the 
Department of the Interior's belief that the Congress should place some 
limit on the potential service population of tribes being made eligible 
for federal benefits for the first time--a concern, as previously 
noted, that has been applied only to this Pueblo. Congress has never 
seen fit to do so since the Pueblo's Restoration Act, perhaps due to 
the sentiments expressed in a House Committee Report accompanying the 
bill -
        The Committee has strong reservations about the 
        constitutionality of a law which would determine eligibility 
        for such Federal services based on a racial criterium such as 
        the degree of Indian blood instead of a political criterium 
        such as the membership in an Indian tribe.
    The language of H.R. 1530 is the same as that H.R. 5811 introduced 
by Congressman Reyes in the last Congress. On a motion to suspend the 
rules, the House agreed to and passed the bill by voice vote on 
September 22, 2010. The Senate Indian Affairs Committee reported the 
bill favorably by unanimous voice vote on November 18, 2010. The bill 
was placed on the Senate Legislative Calendar under General Orders 
where it languished, possibly due to an erroneous CBO cost estimate.
    Given the unique manner in which the federal government funds 
Native American services, enactment of H.R. 1530 will have no fiscal 
impact. In support of this statement I am providing the committee with 
copies of an April 29, 2011 letter from William T. Walker, Regional 
Director of the southwest Region of the Bureau of Indian Affairs, and a 
May 11, 2011 letter from Assistant Surgeon General Richie K. Grinnell, 
Acting Director of the Department of Health and Human Services 
Albuquerque Area Health Services. In his letter, Director Walker 
confirms:
        ``An increase in tribal members, once recognized, has no 
        bearing on the TPA base budget.''
    Assistant Surgeon General Grinnell confirms in his letter that 
under this legislation:
        ``The Ysleta del Sur Pueblo funding would not increase due to 
        an increase in Tribal enrollment.''
    In addition to these two letters, I respectfully direct your 
attention to the CBO cost estimate of H.R. 2912, introduced in the 
108th Congress, which was passed and signed into law, and did for the 
Osage Tribe what the H.R. 1530 will do for the Pueblo:
        The CBO estimates that implementing H.R. 2912 would have no 
        effect on the federal budget because federal agencies currently 
        provide services to all Osage Indians and do not restrict 
        services to those considered to be members of the tribe under 
        the Osage Allotment Act. Enacting H.R. 2912 would not affect 
        revenues or direct spending.
I am providing the committee with a copy of the Osage CBO estimate.
    Passage of H.R. 1530 frees the Pueblo to determine its own future, 
is consistent with recent congressional action, and has no impact on 
the federal coffers. I respectfully request your support for and 
passage of H.R. 1530.
                                 ______
                                 
    Mr. McClintock. Thank you. Our final witness is Charles 
Kerr, President and CEO of Great Northern Properties.

         STATEMENT OF CHARLES KERR, PRESIDENT AND CEO, 
                   GREAT NORTHERN PROPERTIES

    Mr. Kerr. Mr. Chairman, Committee members, my name is Chuck 
Kerr, President and CEO of Great Northern Properties. I am 
pleased to be here today to testify in strong support of H.R. 
1158, the Montana Mineral Conveyance Act.
    GNP is a privately held limited partnership that in 1992 
acquired all of the former Northern Pacific, now Burlington 
Northern Santa Fe, land grant lands in Montana and North 
Dakota. In this acquisition, GNP acquired approximately 5 
million middle acres, 225,000 surface acres, under which lie 
about 20 billion tons of coal. As part of that transaction, we 
did acquire the eight sections of land that are obviously 
subject to H.R. 1158.
    A lot of history has transpired relative to the Otter Creek 
tracts, and leading up to H.R. 1158. My testimony today is on 
GNP's involvement.
    GNP is a facilitator here. This is all about the Tribe, and 
the correction of an error that was made by the U.S. Government 
in 1900. Our job here is to work with the Tribe and facilitate 
this exchange.
    GNP and the Tribe entered into an agreement to facilitate 
that. This agreement provides for two things. Number one, 
coordination and cooperation in facilitating the exchange, and 
to the extent that impact money could be provided, to support 
that. But second, to also provide a means of income for the 
Tribe on off-reservation exchanged tracts via a vehicle called 
the non-participating royalty interest.
    GNP and the Tribe have agreed that the Tribe would 
participate in the off-reservation exchange tracts, if so 
enacted, to the tune of a 40 percent royalty interest to the 
Northern Cheyenne.
    What is important to note is the underlying fundamentals 
that created this agreement. Number one, this is a settlement. 
This isn't your typical land exchange. And because of that, we 
are very concerned about the timing of this exchange.
    The goal here is to effect a quick exchange that will allow 
completion of the goals of fixing the error, as well as 
providing income to the Tribe, without the costly time-
consuming appraisals and additional studies that would be 
required.
    The second driver obviously is the revenue source. The 
Northern Cheyenne need revenue. They are not applying for 
impact funding under this bill. This would potentially provide 
them with an income stream.
    Third, and a major driver to the Northern Cheyenne, is that 
this consolidates their ownership of their own mineral 
resource. And this is extremely important to them because it 
will allow them to control 100 percent of the Tribe's mineral 
resources, the development and timing of that. It is extremely 
important for GNP to facilitate this. We are going to be a 
neighbor and an economic partner of the Tribe if so enacted.
    The two tracts that we have nominated for the exchange 
satisfy the criteria above that I have previously explained. 
The Bridge Creek are very near the Northern Cheyenne Indian 
Reservation, and it is likely that the development of those 
tracts will take place some time in the next 15 to 20 years. It 
is a long time in coming; it is a wonderful reserve, but it 
will take time.
    The five sections of tracts of land that we have nominated 
in the Bowl Mountains area do two things. Number one, it does 
facilitate an important problem that the current underground 
mine operator is undergoing, in that they need these five 
tracts in order to continue mining. Without these tracts in 
some control of theirs, they will not be able to mine.
    Currently the lease process being undertaken by the Federal 
Government is being challenged legally. It is uncertain as to 
when that will take place.
    The Bowl Mountains tracts are likely to be mined in the 
next 10 to 15 years. Revenue could be seen to the Tribe and GNP 
as early as 2015, but the majority of the income will occur in 
the next 10 to 12 years.
    We believe that this, the enactment of H.R. 1158, is the 
right thing to do. It satisfies all sorts of issues on numerous 
fronts. It consolidates Northern Cheyenne Indian Reservation's 
holdings, provides them with income. It solves an issue that 
the U.S. has with the Northern Cheyenne, and it also provides 
the State of Montana and GNP with this fulfillment of its 
obligations under the agreements that were there.
    We ask for strong support of the Committee in H.R. 1158. I 
am available for questions.
    [The prepared statement of Mr. Kerr follows:]

  Statement of Chuck Kerr, President & CEO, Great Northern Properties 
                   Limited Partnership, on H.R. 1158

    Chairman Young and Committee Members, I am Chuck Kerr, President 
and Chief Executive Officer of Great Northern Properties Limited 
Partnership (``GNP''). I am pleased to be here today to testify in 
strong support of H.R. 1158, the Montana Mineral Conveyance Act.
    GNP is a privately held limited partnership that in 1992, acquired 
all of the former Northern Pacific Railroad (now Burlington Northern 
Santa Fe Railroad (``BNSF'')) land grant lands in Montana and North 
Dakota within the Northern Powder River Basin and Northern Lignite coal 
fields, respectively. GNP lands obtained in this transaction contain 
more than 20 billion tons of coal and lignite and are comprised of 
nearly 5 million acres of mineral rights and about 225,000 acres of 
surface ownership. This acquisition included the eight sections of 
mineral rights located on the Northern Cheyenne Reservation (the 
``Reservation'') which is the subject of H.R. 1158, the Montana Mineral 
Conveyance Act (the ``Exchange'')(See attached Map 1). GNP's lands are 
generally located on odd numbered sections within a 120 mile wide strip 
straddling the BNSF main line between Bismarck, ND and Billings, MT 
with the BLM generally owning the even numbered sections creating the 
infamous ``checkerboard'' ownership. The National Mining Association 
has determined that GNP is the largest owner of coal reserves in the 
U.S. other than the U.S. Government.
    A quick bit of historical review is in order to explain to the 
Committee Members GNP's role in this Exchange. Through a long series of 
interactions by and among the U.S. Government, the State of Montana, 
and the Crown Butte Mines Company to settle the New World Mine buy-out, 
the U.S. Government transferred all its mineral rights to the State of 
Montana in and to the lands depicted as Otter Creek Tracts #1, 2, and 3 
on the attached Map 1. Because this transfer would have directly and 
materially impacted the Northern Cheyenne Tribe (the ``Tribe''), 
another sequence of events occurred by and among the Tribe, the State 
of Montana, the Montana Congressional delegation, and ultimately GNP, 
that culminated in a formalized Settlement Agreement between the State 
of Montana and the Tribe. The Settlement Agreement provided that (i) 
the Montana State Land Board would require any lessee of the Otter 
Creek tracts to abide by certain terms and conditions regarding mine 
operations protecting and ensuring certain rights in favor of the 
Tribe, (ii) on-going support from the State of Montana on mitigation of 
impacts of these operations to the Tribe, and (iii) a separate 
commitment made by the Montana Congressional delegation to the Tribe to 
seek enactment of federal legislation providing for impact and cultural 
program funding and to secure the promptest possible enactment of 
federal legislation authorizing an acreage exchange with GNP to correct 
an 111 year old error made by the U.S. Government to acquire subsurface 
rights to the eight sections within the Reservation upon the expansion 
of the Reservation. In conjunction with the State of Montana Settlement 
Agreement, GNP and the Tribe entered into a separate agreement (``GNP-
Tribe Agreement'') outlining terms and conditions to facilitate the 
Exchange.
    The GNP-Tribe Agreement is important to understand. The substantive 
terms of this Agreement provide that (i) both GNP and the Tribe would 
cooperate to ``...secure the promptest possible enactment of mutually 
satisfactory federal legislation...authorizing and directing the 
Exchange and providing for coal development-related federal impact 
funding to the Tribe'', and (ii) upon enactment of the Exchange, 
promptly transfer an agreed upon non-participating royalty interest to 
the Tribe (``Tribe NPRI'') on the off-Reservation Exchange acreage. The 
genesis of this NPRI lies in the underlying 1992 sale/purchase 
transaction between BNSF and GNP. As additional purchase compensation 
to BNSF, GNP agreed to pay BNSF an NPRI (``BNSF NPRI'') on certain 
undeveloped acreage. The 8 sections of minerals owned by GNP on the 
Reservation are burdened by the BNSF NPRI. In the event of the Exchange 
is enacted, GNP would exchange its on-Reservation mineral interests for 
off-Reservation mineral interests, but because the BNSF NPRI is a 
covenant running with the land and would not transfer in the Exchange, 
the BNSF NPRI would still burden the on-Reservation acreage while there 
would be no such burden on the off-Reservation Exchange tracts. GNP and 
the Tribe agreed to create a similar NPRI in favor of the Tribe on the 
off-Reservation Exchange acreage equal to the on-Reservation NPRI. For 
the off-Reservation tracts that have been selected, the Tribe NPRI 
would equal 40% of any royalties received by GNP. In crafting the GNP-
Tribe Agreement, there was mutual agreement on the key drivers that 
created the framework of this Agreement.
    The most important driver was the fact that this Exchange was a 
settlement that would resolve a 111 year old issue between the Tribe 
and the U.S. Government and not a typical land exchange. As a 
settlement, it was expected no costly and time consuming appraisals or 
additional studies would be required. The Tribe is not capable of 
paying for these studies and GNP has no obligation or desire to do so. 
Because of the unique economic partnership that could potentially exist 
between GNP and the Tribe, both parties would be mutually aligned in 
the future development of the Exchange tracts.
    The second driver was the provision of a revenue source to the 
Tribe on the off-Reservation Exchange tracts via the NPRI vehicle 
previously described. Another important driver was, and still is, 
timing. The Tribe is in desperate need of revenue. Inasmuch as the 
Tribe and GNP were potentially going to be economic partners, priority 
was given to picking off-Reservation tracts that could yield cash flow 
as soon as possible.
    Lastly, a major driver to both the Tribe and GNP, was the fact that 
enactment of the Exchange would yield tremendous intangible value by 
allowing each party to unilaterally develop its own resources. 
Currently, GNP's ownership of the On-Reservation Exchange Tracts 
precludes the Tribe from developing its own resources without the 
involvement of GNP. Likewise, GNP would not be able to develop its on-
Reservation Tracts without the Tribe. The Exchange would allow the 
Tribe to control its own timing and destiny with regard to future coal 
development on the Reservation.
    As shown on the attached Map 1, GNP has substantial coal holdings 
in close proximity to the Northern Cheyenne Reservation. GNP is 
committed to honor its agreements and obligations to the Northern 
Cheyenne to resolve this matter. It is extremely important to GNP that 
we not only live up to our commitments, but to be a good neighbor and 
potentially an economic partner with the Northern Cheyenne. GNP works 
very hard to cultivate long lasting relationships that provide mutual 
alignment of the parties during the relationship and we believe this 
Exchange personifies that type of relationship.
    Keeping in mind GNP's objectives of finding suitable exchange 
tracts that would provide the best chance for potential revenues to 
both the Tribe and GNP and aid the development of GNP's current 
ownership, GNP and the Tribe consulted and cooperated with each other 
in the current selection of the off-Reservation exchange tracts. 
Several different attempts have been made in this selection process 
yielding the current slate of nominated tracts. Upon execution of the 
GNP-Tribe Agreement, tracts were selected in areas that, at that time, 
were likely to lead to rapid development. This selection has 
subsequently been modified because one selected area is being abandon 
by the current mine operator and the other area is close to an area 
recently designated a wilderness study area. With the re-engagement of 
the parties to move forward on the Exchange, a mutual reassessment of 
the Exchange tracts was conducted and a new group of tracts selected. 
The second group of Exchange tracts targeted three geographically 
diverse areas. The Tribe, to insure buy-off from all potential stake-
holders, sought approval from a local environmental advocacy group, the 
Northern Plains Resource Council (the ``NPRC''). The NPRC protested two 
of the three selections based on surface ownership issues. Once again, 
a re-selection process was undertaken, this time, giving consideration 
to the NPRC surface ownership concerns, culminating in the current 
selection.
    The current selection of the 3 sections in the Bridge Creek area as 
shown on the attached Map 1 will meet the Exchange criteria agreed to 
between GNP and the Tribe, address the concerns expressed by the NPRC, 
but will also provide intangible benefits by being in an area known to 
the Tribe and in which if ever developed, could provide for Tribal 
employment and control/protection opportunities given its proximity to 
the Reservation.
    The five (5) sections selected in the Bull Mountains Area (see 
attached Map 2) were chosen in cooperation with GNP, the Tribe and 
Signal Peak Energy, the current operators of the Bull Mountains 
underground mine. Signal Peak is expanding their current mine permit 
area and is experiencing timing issues that may curtail current mining 
operations. The nominated Exchange Acreage in the Bull Mountains area 
is subject to an on-going Lease By Application (``LBA'') process being 
managed by the Bureau of Land Management. It is unknown when the 
process will be completed, which is a major issue for Signal Peak, and 
the lease process is currently being challenged by various 
environmental groups. The LBA lease process is likely to undergo 
additional challenges in federal district courts given recent 
precedence to similar proceedings in Wyoming. The Exchange would likely 
alleviate the timing problems and allow Signal Peak to continue its 
mine operations uninterrupted keeping nearly 300 miners employed in 
good paying jobs.
    As Congress reviews this legislation, timing and probability of 
development need to be taken into consideration. At Bull Mountains, the 
first royalty cash flow from the Exchange Tracts will likely occur in 
2015 and will not be a steady cash flow. A small amount of Exchange 
Tract coal will be mined in 2015 (5%),  20% in 2017-2018, with the 
remainder (75%) in 2022-2024. In other words, the majority of the Bull 
Mountains cash flow WILL NOT occur in the next 10 years.
    At Bridge Creek, IF IT IS EVER MINED, optimistically, first 
production could take place in 15 years. There are no current plans to 
mine Bridge Creek and development is almost solely dependent on the 
development of Otter Creek. First production at Otter Creek is likely 
7-10 years away which will provide the necessary transportation 
infrastructure for the area, including Bridge Creek. The take-away here 
is that there is no immediate and significant cash flow out of any of 
the Exchange tracts and there is a high probability that Bridge Creek 
may never be mined. As a real life example, GNP bought its 5 million 
mineral acres and 20 billion tons of coal from BNSF in 1992. There are 
60 identified developable and mineable areas on GNP lands and since the 
purchase in 1992, not one ton of our 20 billion tons has been 
developed!! As I am sure the Members of this Committee may have 
noticed, any new coal development faces many challenges. GHG issues, 
regulatory uncertainty, lack of transportation infrastructure and 
strong environmental opposition are just a few of the hurdles we face 
in opening up new coal reserves.
    GNP is participating in this Exchange primarily because we want to 
establish a long lasting relationship with the Tribe, it is the right 
thing to do and, it may help the development of some of our resources 
in the future...maybe. This Exchange is all about the Tribe. GNP is 
under no obligation to participate in this Exchange and while GNP may 
some derive some economic benefit from this Exchange, the bigger value 
is the relationship we will have built with the Tribe and the 
satisfaction of our (and others) commitment to resolve this issue. In 
the State of Montana Settlement Agreement and as part of the commitment 
made by the Montana Congressional Delegation, the Tribe was to receive 
impact funding given all of the coal development that may take place in 
the future. Given the legislative environment, the Tribe has elected 
not to pursue impact funding in the Exchange yet needs financial 
assistance. The Exchange, if enacted, not only remedies a long standing 
dispute between the U.S. Government and the Tribe, but also provides a 
means for the Tribe to realize revenue paid to them by private 
industry, potentially in lieu of federal impact funding.
    At the end of the day, GNP's primary role in this legislation is to 
be a facilitator. I believe GNP's role as a facilitator in the 
enactment of H.R. 1158 is a win-win on numerous fronts. First, the 
enactment fulfills an obligation by the U.S. Government to correct an 
error that has gone on for 111 years. The enactment consolidates the 
ownership of mineral estate on the Northern Cheyenne Reservation 
allowing the Tribe to control the development of its resources in its 
sole discretion. It satisfies the obligation of the State of Montana in 
the Settlement Agreement to assist in the exchange. The enactment 
provides relief to Signal Peak in allowing uninterrupted mining 
operations. The enactment would provide a much needed income stream to 
the Northern Cheyenne from non-Reservation private sources, and not 
from the U.S. Government. And lastly, the enactment fulfills GNP's 
obligations contained in the Agreement between GNP and the Tribe, 
potentially helps GNP in the development of some of its other 
resources, and hopefully solidifies a deep, long lasting cordial 
relationship between GNP and the Tribe.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. McClintock. Thank you for your testimony. We will now 
move to five-minute questions by the Members. The Chair will 
begin.
    Vice President Fox, in 2004 similar legislation was 
introduced, but no hearings were held. One of the differences 
between the 2004 legislation and H.R. 1158 is a provision that 
would authorize a $70 million impact assistance fund that would 
benefit the Tribe. That provision is not in H.R. 1158. Why is 
that?
    Mr. Fox. My understanding, Chairman, is that because, as I 
stated in my statement, the realities of the budgetary 
processes that are going on here with Congress. I think it is a 
process that would be probably expedited in a way that the land 
issue, primarily the Northern Cheyenne Tribe want their 
reservation and their lands back in whole, with the sections 
and the coal would be reinstated as part of the correction at 
this time. I think that is why it was excluded, Chairman.
    Mr. McClintock. So you will be developing these resources, 
and that essentially becomes a tremendous economic engine for 
the Tribe.
    Mr. Fox. Well, in the future, Chairman, that would probably 
be most likely that the Tribe would also be looking at ways and 
plans. And maybe in the future that this is a potential 
economic endeavor for the Tribe.
    Mr. McClintock. Very good. Mr. Hisa, regarding H.R. 1560, 
it strikes me as one of the inherent powers of sovereignty is 
to determine the qualification of citizenship. That is 
essentially what this bill is doing, is it not?
    Mr. Hisa. Correct. That is all we are asking for.
    Mr. McClintock. That is the way it looks to me, too. That 
is all I have. I would defer to the Ranking Member, Mr. Lujan, 
for five minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman. Lt. Gov. 
Hisa, what are the implications if Congress does not change the 
one-eighth blood quantum requirement for the Ysleta del Sur 
Pueblo?
    Mr. Hisa. As you heard in my testimony, my daughters don't 
qualify for recognition at this point. They are Tewa, we do 
consider them Tewa in the Pueblo. But again, they are not 
recognized by the Federal Government.
    I am not the only one in that situation. A lot of our 
families are in that situation, as well. We do have a lot of 
descendants waiting to be considered Tewa by the Federal 
Government. So it is a huge impact; our future depends on it, 
and our existence depends on it.
    Mr. Lujan. I appreciate that very much. Vice President Fox, 
does H.R. 1158 contain any provisions that the Tribe would have 
authority to control and protect off-reservation tracts from 
harm to the land, water, and air upon development of coal 
mining?
    Mr. Fox. With that, we have, we have, you know, the Class I 
air, that is being designated by the Tribe. Currently that is a 
process that has the impacts of the Tribe to this point in 
time. But you know, that is as far as I know, Congressman.
    Mr. Lujan. So, Vice President Fox, even though H.R. 1158 
doesn't contain those provisions, the Tribe will be working to 
ensure that you are able to protect your land, water, and air 
in those areas?
    Mr. Fox. That is correct.
    Mr. Lujan. And Mr. Kerr, will GNP work with the Tribe to 
make sure that we are ensuring protections of land, water, and 
air in these areas?
    Mr. Kerr. Absolutely.
    Mr. Lujan. Very good. Vice President Fox, how will the 
Tribe's royalty interest in coal developed in both the Bowl 
Mountain and Bridge Creek Federal tracts assist its goal in 
achieving self-governance?
    Mr. Fox. At this point in time, the 40 percent royalties, 
that would help offset, and also would help the financial 
stability of the Tribe. And also, would also be determined for 
economic purposes for the Tribe to be self-sustained, and in 
helping with the constraints of budgetary processes that we do 
face today.
    Mr. Lujan. Vice President Fox, do you believe that that can 
be achieved while protecting land, water, and air, as well?
    Mr. Fox. I think it can be, through the processes of 
negotiating and a good work relationship with our neighbors.
    Mr. Lujan. I appreciate that. Mr. Kerr, your written 
statement indicates that development of coal resources in the 
Bowl Mountain area is burdened by an uncertain future due to 
the lease-by-application process. For example, the process has 
been challenged in Federal Court by environmental groups.
    Why was this section in particular, if development is 
unlikely in the near term? Why was this section chosen, if 
development is unlikely in the near term, of Bowl Mountain?
    Mr. Kerr. Well, development is likely. It is in the 
expanded mine plan of the Signal Peak area. It is just going to 
take a long time for the mine to reach these tracts to receive 
income.
    There is no question that the tracts will be developed, it 
is just a matter of when. And that is the issue. The Signal 
Peak Mine is going to start mining on the first tracts within 
the next two to three years, and they need to control the 
mineral rights to be able to mine. The lease-by-application 
process is being challenged, and it is uncertain as to when 
that process will be completed. And so it is likely going to be 
beyond the three-year period.
    The majority of the income, however, on the five tracts is 
going to take place later in 2020-to-2022 timeframe.
    Mr. Lujan. And how will GNP benefit from the selections 
specifically?
    Mr. Kerr. Well, obviously, we are going to be mineral 
owner, and so we will participate in the royalties paid. We 
would share the royalties received to the tune of GNP receiving 
60 percent and the Tribe receiving 40 percent.
    Mr. Lujan. Very good. Thank you very much, Mr. Chairman.
    Mr. McClintock. Thank you. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Mr. Kerr, I would like 
to understand right now, as we sit here today, is GNP still 
mining what would be considered the eight tracts that are at 
issue?
    Mr. Kerr. No, the eight tracts on the Northern Cheyenne are 
undeveloped.
    Ms. Hanabusa. They are undeveloped?
    Mr. Kerr. Correct.
    Ms. Hanabusa. But these are the issues regarding the 
subsurface mineral rights, correct?
    Mr. Kerr. Correct. In order for us to develop beyond 
reservation tracts, we wouldn't--the eight reservation tracts 
are owned in a checkerboard fashion. The Northern Cheyenne or 
the U.S. Government controls the offsetting section.
    So in order for this, for GNP to attempt to develop, we 
would need to work in concert with the Tribe, as well as the 
BLM, which is a very long and protracted affair. And then on 
these tracts, if they were developed, the Tribe would receive 
no income.
    Ms. Hanabusa. And you, GNP, has claimed some sort of 
interest in these tracts today, correct?
    Mr. Kerr. That is correct.
    Ms. Hanabusa. And what is the basis of your claim, GNP's 
claim?
    Mr. Kerr. Well, these tracts were originally given to the 
railroads as part of the land grants back in the 1800s for the 
trans-continental railroads. We acquired these properties in 
1992 from the railroads.
    And so when the transfer took place, we acceded to the 
railroad. What happened here is that in 1900, when the 
reservation was expanded, these mineral rights were not 
acquired by the U.S. Government for the benefit of the Northern 
Cheyenne. It was a mistake. And so we actually owned the 
mineral rights under these, under these tracts, in error.
    Ms. Hanabusa. So the settlement is really one where you are 
going to get 5,000 acres somewhere off reservation, Federal 
lands, and those are the tracts you described, two and five I 
think were the different ones. And in exchange for that, GNP is 
going to waive any interest it may have to the underlying 
subsurface rights on the eight tracts in the Cheyenne property.
    Mr. Hisa. That is correct.
    Ms. Hanabusa. You heard the testimony of Ms. Gillette, 
where she is recommending that you also waive any claims 
against the United States as part of this bill. Is that going 
to become an issue?
    Mr. Kerr. I need to understand what they are asking us to 
waive. If they are concerned about a taking, or waiving our 
rights to a claim against the United States on these, on this 
exchange, I think that is something that we would take under 
consideration, and likely agree to.
    Ms. Hanabusa. Also as part of this bill, it says that if 
any portion of the mineral conveyance under 4[a], which is the 
conveyance by GNP, is invalidated by a Federal Court, then 
basically the whole deal is off. Is that your understanding?
    Mr. Kerr. I am not familiar with that clause.
    Ms. Hanabusa. You are not familiar with that? Now, over the 
years, since 1992 has it been that you have been actually, you 
acquired the interest, GNP acquired the interest?
    Mr. Kerr. Correct.
    Ms. Hanabusa. Has there been mining elsewhere, on 
reservation property?
    Mr. Kerr. No. Since 1992, no new coal has been developed on 
not only these tracts, but on the 5 million mineral acres that 
GNP acquired from the railroad in the States of Montana and 
North Dakota. In this transaction, no new coal has been 
developed.
    Ms. Hanabusa. But there was already coal being mined 
somewhere in those acres.
    Mr. Kerr. No.
    Ms. Hanabusa. None?
    Mr. Kerr. No, this is fully undeveloped.
    Ms. Hanabusa. Fully undeveloped. I am of course trying to 
ascertain what kind of damages you may have suffered, so it is 
good to know that you haven't really suffered anything, because 
you haven't mined anything.
    Mr. Kerr. No, the true value here is in the future cash 
flow.
    Ms. Hanabusa. Future, exactly.
    Mr. Kerr. Correct.
    Ms. Hanabusa. Exactly. And that is of course assuming that 
we don't get caught up in some kind of protracted litigation as 
to who had the right to deed the land grant, and so forth and 
so on, which could tie everyone up for more than decades.
    Thank you very much. Thank you, Mr. Chair.
    Mr. McClintock. That concludes the Committee's questions. I 
would like to thank the witnesses and the Members and the staff 
for their participation and preparation today.
    Members of the Subcommittee may have additional questions 
for the witnesses, so we would ask you to respond to those in 
writing. And as the Chair noted earlier, the hearing record 
will be left open for 10 business days.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 12:12 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

 The documents listed below were submitted for the record and have been 
        retained in the Committee's official files.

Submitted for the record by Mr. Joe Fox, Jr. Vice President, Northern 
        Cheyenne Tribe:
        <bullet>  Document titled ``Montana Mineral Conveyance Act--
        Historical Perspective''
        <bullet>  Document from the National Congress of American 
        Indians titled ``The National Congress of American Indians 
        Resolution #MKE-11-022''
Submitted for the record by The Honorable Carlos Hisa, Lt. Governor of 
        Ysleta del Sur Pueblo:
        <bullet>  A letter from the Department of Health & Human 
        Services--Mr. Richie K. Grinnell, M.P.H., Assistant Surgeon 
        General, Acting Director--to Governor Frank Paiz of Ysleta del 
        Sur Pueblo, dated May 11, 2011.
        <bullet>  A letter from the U.S. Department of the Interior, 
        Bureau of Indian Affairs Southwest Region, to the Director, 
        Bureau of Indian Affairs from the Regional Director, Southwest 
        Region. Subject: Recommendation for Approval on Proposed 
        Legislation--H.R. 5811, dated April 20, 2011.
        <bullet>  Document from the Congressional Budget Office, Cost 
        Estimate regarding ``H.R. 2912, an Act to reaffirm the inherent 
        sovereign rights of the Osage Tribe to determine its membership 
        and form of government,'' dated July 20, 2004.
Submitted for the record by The Honorable Ben Ray Lujan:
        <bullet>  A letter from the U.S. Department of the Interior, 
        Bureau of Indian Affairs Southwest Region, to the Director, 
        Bureau of Indian Affairs from the Regional Director, Southwest 
        Region. Subject: Recommendation for Approval on Proposed 
        Legislation--H.R. 5811, dated April 20, 2011.
        <bullet>  A letter from the Department of Health & Human 
        Services--Mr. Richie K. Grinnell, M.P.H., Assistant Surgeon 
        General, Acting Director--to Governor Frank Paiz of Ysleta del 
        Sur Pueblo, dated May 11, 2011.
        <bullet>  A letter from the All Indian Pueblo Council, Office 
        of the Chairman, to Congressman Ben Ray Lujan from Chandler 
        Sanchez, Chairman, dated June 21, 2011.
Submitted for the record by The Honorable Frank Paiz, Governor of 
        Ysleta del Sur Pueblo
        <bullet>  A letter from the U.S. Department of the Interior, 
        Bureau of Indian Affairs Southwest Region, to the Director, 
        Bureau of Indian Affairs, from the Regional Director, Southwest 
        Region. Subject: Recommendation for Approval on Proposed 
        Legislation--H.R. 5811, dated April 20, 2011.
        <bullet>  A letter from the Department of Health & Human 
        Services--Mr. Richie K. Grinnell, M.P.H., Assistant Surgeon 
        General, Acting Director, to Governor Frank Paiz of Ysleta del 
        Sur Pueblo, dated May 11, 2011.
Submitted for the record by The Honorable Dennis Rehberg:
        <bullet>  A letter from the State of Montana, Board of Land 
        Commissioners regarding ``Revised Draft of Proposed `Montana 
        Mineral Conveyance Act''' to Senator Baucus, Senator Tester, 
        and Representative Rehberg, dated March 21, 2011.
        <bullet>  Document from the Montana-Wyoming Tribal Leaders 
        Council, titled ``A Resolution to urge Montana Congressional 
        Delegation to pursue Enactment of S. 647 and H.R. 1158 as 
        promptly as possible.''
Submitted for the record by The Honorable Silvestre Reyes:
        <bullet>  A letter from the U.S. Department of the Interior, 
        Bureau of Indian Affairs Southwest Region, to the Director, 
        Bureau of Indian Affairs from the Regional Director, Southwest 
        Region. Subject: Recommendation for Approval on Proposed 
        Legislation--H.R. 5811, dated April 20, 2011.
        <bullet>  A letter from the Department of Health & Human 
        Services--Mr. Richie K. Grinnell, M.P.H., Assistant Surgeon 
        General, Acting Director, to Governor Frank Paiz of Ysleta del 
        Sur Pueblo, dated May 11, 2011.

                                 <all>

</pre></body></html>
